<html>
<title> - READINESS IN THE POST-KATRINA AND POST-9/11 WORLD: AN EXAMINATION OF THE NEW NATIONAL RESPONSE FRAMEWORK</title>
<body><pre>[House Hearing, 110 Congress]
[From the U.S. Government Printing Office]


 
  READINESS IN THE POST-KATRINA AND POST-9/11 WORLD: AN EXAMINATION OF 
                  THE NEW NATIONAL RESPONSE FRAMEWORK 

=======================================================================

                                (110-68)

                                HEARING

                               BEFORE THE

                            SUBCOMMITTEE ON
    ECONOMIC DEVELOPMENT, PUBLIC BUILDINGS, AND EMERGENCY MANAGEMENT

                                 OF THE

                              COMMITTEE ON
                   TRANSPORTATION AND INFRASTRUCTURE
                        HOUSE OF REPRESENTATIVES

                       ONE HUNDRED TENTH CONGRESS

                             FIRST SESSION

                               __________

                           SEPTEMBER 11, 2007

                               __________

                       Printed for the use of the
             Committee on Transportation and Infrastructure

                               ----------
                         U.S. GOVERNMENT PRINTING OFFICE 

37-917 PDF                       WASHINGTON : 2007 

For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; 
DC area (202) 512-1800 Fax: (202) 512-2104 Mail: Stop IDCC, 
Washington, DC 20402-0001 



















             COMMITTEE ON TRANSPORTATION AND INFRASTRUCTURE

                 JAMES L. OBERSTAR, Minnesota, Chairman

NICK J. RAHALL, II, West Virginia,   JOHN L. MICA, Florida
Vice Chair                           DON YOUNG, Alaska
PETER A. DeFAZIO, Oregon             THOMAS E. PETRI, Wisconsin
JERRY F. COSTELLO, Illinois          HOWARD COBLE, North Carolina
ELEANOR HOLMES NORTON, District of   JOHN J. DUNCAN, Jr., Tennessee
Columbia                             WAYNE T. GILCHREST, Maryland
JERROLD NADLER, New York             VERNON J. EHLERS, Michigan
CORRINE BROWN, Florida               STEVEN C. LaTOURETTE, Ohio
BOB FILNER, California               RICHARD H. BAKER, Louisiana
EDDIE BERNICE JOHNSON, Texas         FRANK A. LoBIONDO, New Jersey
GENE TAYLOR, Mississippi             JERRY MORAN, Kansas
ELIJAH E. CUMMINGS, Maryland         GARY G. MILLER, California
ELLEN O. TAUSCHER, California        ROBIN HAYES, North Carolina
LEONARD L. BOSWELL, Iowa             HENRY E. BROWN, Jr., South 
TIM HOLDEN, Pennsylvania             Carolina
BRIAN BAIRD, Washington              TIMOTHY V. JOHNSON, Illinois
RICK LARSEN, Washington              TODD RUSSELL PLATTS, Pennsylvania
MICHAEL E. CAPUANO, Massachusetts    SAM GRAVES, Missouri
JULIA CARSON, Indiana                BILL SHUSTER, Pennsylvania
TIMOTHY H. BISHOP, New York          JOHN BOOZMAN, Arkansas
MICHAEL H. MICHAUD, Maine            SHELLEY MOORE CAPITO, West 
BRIAN HIGGINS, New York              Virginia
RUSS CARNAHAN, Missouri              JIM GERLACH, Pennsylvania
JOHN T. SALAZAR, Colorado            MARIO DIAZ-BALART, Florida
GRACE F. NAPOLITANO, California      CHARLES W. DENT, Pennsylvania
DANIEL LIPINSKI, Illinois            TED POE, Texas
DORIS O. MATSUI, California          DAVID G. REICHERT, Washington
NICK LAMPSON, Texas                  CONNIE MACK, Florida
ZACHARY T. SPACE, Ohio               JOHN R. `RANDY' KUHL, Jr., New 
MAZIE K. HIRONO, Hawaii              York
BRUCE L. BRALEY, Iowa                LYNN A WESTMORELAND, Georgia
JASON ALTMIRE, Pennsylvania          CHARLES W. BOUSTANY, Jr., 
TIMOTHY J. WALZ, Minnesota           Louisiana
HEATH SHULER, North Carolina         JEAN SCHMIDT, Ohio
MICHAEL A. ACURI, New York           CANDICE S. MILLER, Michigan
HARRY E. MITCHELL, Arizona           THELMA D. DRAKE, Virginia
CHRISTOPHER P. CARNEY, Pennsylvania  MARY FALLIN, Oklahoma
JOHN J. HALL, New York               VERN BUCHANAN, Florida
STEVE KAGEN, Wisconsin
STEVE COHEN, Tennessee
JERRY McNERNEY, California
VACANCY

                                  (ii)

  


 Subcommittee on Economic Development, Public Buildings, and Emergency 
                               Management

        ELEANOR HOLMES NORTON, District of Columbia, Chairwoman

CHRISTOPHER P. CARNEY,               SAM GRAVES, Missouri
Pennsylvania, Vice Chair             BILL SHUSTER, Pennsylvania
MICHAEL H. MICHAUD, Maine            SHELLEY MOORE CAPITO, West 
JASON ALTMIRE, Pennsylvania          Virginia
MICHAEL A. ARCURI, New York          CHARLES W. DENT, Pennsylvania
TIMOTHY J. WALZ, Minnesota           JOHN R. `RANDY' KUHL, Jr., New 
STEVE COHEN, Tennessee               York
JAMES L. OBERSTAR, Minnesota         JOHN L. MICA, Florida
  (Ex Officio)                         (Ex Officio)

                                 (iii)
















                                CONTENTS

                                                                   Page

Summary of Subject Matter........................................    vi

                               TESTIMONY

Bohlmann, Robert C., Chairman, U.S. Government Affairs Committee, 
  International Association of Emergency Managers and Director, 
  York County, Maine Emergency Management Agency.................    26
Manning, Tim, Chairman, Response and Recovery Committee, National 
  Emergency Management Association and Director, New Mexico 
  Department of Homeland Security and Emergency Management.......    26
Paulison, R. David, Administrator, Federal Emergency Management 
  Agency, Department of Homeland Security........................     7
Rufe, Jr., Roger T., Director, Office of Operations Coordination, 
  Department of Homeland Security................................     7
Stockton, Dr. Paul, Senior Research Scholar, Center for 
  International Security and Cooperation, Stanford University....    31
Waugh, Jr., Dr. William, Professor, Department of Public 
  Administration & Urban Studies, Georgia State University.......    31

          PREPARED STATEMENT SUBMITTED BY MEMBERS OF CONGRESS

Altmire, Hon. Jason, of Pennsylvania.............................    48
Cohen, Hon. Steve, of Tennessee..................................    49
Oberstar, Hon. James L., of Minnesota............................    50
Shuster, Hon. Bill, of Pennsylvania..............................    53

               PREPARED STATEMENTS SUBMITTED BY WITNESSES

Bohlmann, Robert C...............................................    58
Manning, Tim.....................................................    63
Paulison, R. David...............................................    69
Rufe, Roger......................................................   104
Stockton, Paul N.................................................   109
Waugh Jr., William L.............................................   117

                       SUBMISSIONS FOR THE RECORD

Paulison, R. David, Administrator, Federal Emergency Management 
  Agency, Department of Homeland Security, responses to questions 
  from the Subcommittee..........................................    75

                        ADDITIONS TO THE RECORD

James Lee Witt Associates, James Lee Witt, CEO, written statement   125

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

READINESS IN THE POST-KATRINA AND POST-9/11 WORLD: AN EVALUATION OF THE 
                    NEW NATIONAL RESPONSE FRAMEWORK

                              ----------                              


                      Tuesday, September 11, 2007

                  House of Representatives,
    Committee on Transportation and Infrastructure,
Subcommittee on Economic Development, Public Buildings, and 
                                      Emergency Management,
                                                    Washington, DC.
    The Subcommittee met, pursuant to call, at 10:10 a.m., in 
Room 2167, Rayburn House Office Building, Hon. Eleanor Holmes 
Norton [Chair of the Subcommittee] Presiding.
    Ms. Norton. Good morning, and welcome to today's hearing. 
We are pleased to welcome our Federal guests and the panel of 
experts, and I look forward to their testimony on the National 
Response Framework, the NRF. We are holding the first hearing 
on the NRF on the anniversary of 9/11 because our Committee 
holds primary jurisdiction over the Federal Emergency 
Management Agency, or FEMA, the primary agency implemented in 
the most serious terrorist and natural disaster events in U.S. 
history, 2 years after Hurricane Katrina and 6 years after the 
9/11 attack on the United States.
    After months of delay, we gave FEMA and the Department of 
Homeland Security, or DHS, a deadline of September 5th to 
supply the National Response Framework. We thank the officials 
for meeting this deadline and for giving the Subcommittee the 
time to analyze the NRF. They have agreed that, on this 9/11 
anniversary, the American people must be assured in the midst 
of, yet, another hurricane season and the administration's own 
warning about a reorganized and a strengthened al Qaeda that 
the country is ready for a catastrophic attack of any kind.
    To address issues of accountability that were on stark 
display during the administration's response to Katrina, the 
last Congress passed the Post-Katrina Emergency Management 
Reform Act of 2006, which prescribed several directives that 
Congress felt were essential to prepare the Nation for any new 
disasters, whether a natural event or a terrorist attack. The 
Post-Katrina Act requires the Administrator of FEMA to ensure 
that the National Response Plan provides for a clear chain of 
command that is consistent with the role of the Administrator 
as the principal emergency management advisor to the President 
of the United States. Perhaps most important, the new Act 
requires FEMA to coordinate with State and local officials when 
developing the National Response Framework.
    To ensure that these mandates were met and that the 
Subcommittee could objectively evaluate the administration's 
submission, the Subcommittee sent prehearing questions to our 
expert witnesses to get their assessment of the draft plan. 
They were asked, one, "Do you believe the draft National 
Response Framework reflects the role and responsibility of the 
FEMA administrator as required by law?" two, "Do you believe 
the President will receive the professional advice he needs 
during a catastrophic disaster?" three, "The law requires that 
FEMA and the Department of Homeland Security coordinate and 
confer with State and local emergency managers in developing 
the National Response Framework. In your opinion, did FEMA and 
DHS comply with the law in this regard?"
    The answers we received were candid and, I must say, 
troubling. One of today's witnesses will testify, "The draft 
framework overlooks the concerns that help shape the 
legislation Congress enacted and would put the Nation at risk 
to some of the same systemic failures that hobbled the Federal 
response to Katrina."
    According to the testimony of another of today's experts, 
the National Response Framework, "ignores the role of the 
counties and parishes in disaster response and early recovery, 
which, in many States, is very significant."
    Such criticism of missing-on-the-ground involvement from 
first responders, who alone are familiar with local conditions 
and who must implement any plan go to the heart of a response 
to disasters and would amount to noncompliance with 
requirements of cooperation and coordinations set forth in the 
Post Katrina Act. Remembering the plain and painful confusions 
between the roles of FEMA and the Department of Homeland 
Security during Katrina, we are left concerned that, as another 
witness notes, and I am quoting him, "it is not clear in the 
NRF who will be in charge of coordinating the Federal response. 
In fact, it contradicts the Post Katrina Act."
    This year, this Subcommittee has already had occasion to 
examine the chain of command issue as it relates to the Federal 
Coordinating Officer, that is a FEMA official, and the 
Principal Federal Officer. That is the PFO or a person who 
works for the Department of Homeland Security.
    Now, explain this dichotomy for those of you who are not 
familiar with bureaucracies because what you have are two 
officers--one who works for FEMA, which is in the Department of 
Homeland Security, and the other, the PFO, who works for the 
Department of Homeland Security. Now, remember what this 
hearing is, in part, about. It is about avoiding some of the 
confusion on the ground that accounted for the Katrina disaster 
response.
    We concluded in this Subcommittee that the PFO position in 
DHS was duplicative, here we go again, and caused confusion in 
the field. That is this year. Just a few months ago we 
concluded that. This Subcommittee was so concerned that we 
subsequently asked the Appropriations Committee to prevent 
funds from being used for the PFO positions, and the House did 
so. The Senate DHS appropriation is, as yet, unfinished.
    When Congress enacted the Post Katrina Act, it wrote in by 
statute, by law, my friends, one coordinating Federal officer--
that is in plain language in the statute--who must, we wrote, 
this Post Katrina, understand, must have emergency management 
experience and must be the disaster response official. That is 
how we tried to clear out the confusion that existed in 
Katrina. This provision was written with a clear intent to 
provide the President of the United States through the FEMA 
administrator with direct emergency management consultation 
directly to him, not through anybody else but through him, to 
avoid delay in responding to a disaster, cutting out the 
bureaucracy that the whole world saw was responsible, in no 
small part, for the response to Katrina.
    If the PFO, the person who works for the Department of 
Homeland Security, is not required to have emergency management 
background--and he is not--and is the representative of the 
Secretary of the Department of Homeland Security and if this 
person is to be the advisor to the Secretary in a disaster as 
the draft National Response Plan now states, then the plan in 
this respect clearly contravenes the plain language of the Act.
    We are mindful of the difficulty of putting together a 
document so ambitious in its mandate that it is named a 
"national response framework." We must expect that any such 
document would incur some criticism. However, we are deeply 
troubled that the critiques of the plan we are receiving go to 
the Congressional mandate of the Post Katrina Act, itself, 
suggesting that the Department, as some would say, just does 
not get it or, worse, that it does not want to get it.
    We will listen carefully and objectively to testimony from 
the administration and particularly to their defense against 
the caustic criticism of the experts. However, we are a 
democratic Nation of laws, and no executive branch agency, 
including the Department of Homeland Security, gets to pick and 
choose which laws to follow. We do not intend to forget that 
the reason Hurricane Katrina's response was such a disaster 
was, in no small part, because of a lack of a coherent plan for 
martialing the resources available locally, at the State and at 
the Federal levels. Katrina was a dress rehearsal for the next 
disaster that this country may face, whether manmade or 
natural.
    This Subcommittee in its role of oversight intends to work 
closely with FEMA and with the Department of Homeland Security 
to do whatever proves necessary to ensure that the 
Congressional mandates of the Post-Katrina Management Act of 
2006 are implemented as written into law. Under no 
circumstances will this Subcommittee abrogate its 
responsibility to ensure that, in the event of another disaster 
response, there is insufficient accountability.
    Again, we appreciate the time and the effort that went into 
the National Response Framework and look forward to the 
testimony of the government and of the expert panel. I am 
pleased to hear the comments, such that he may have, from our 
ranking Member, Mr. Graves.
    Mr. Graves. Thank you, Madam Chair, and thank you for 
holding today's hearing on the Federal Government's disaster 
readiness and the revised National Response Plan.
    Madam Chair, today's hearing is important for a couple of 
reasons. First, we need to know if the experts believe the 
Department has produced a good plan. Will it work? If not, how 
should it be improved? We saw during Hurricane Katrina a 
confusing response plan or a plan that was poorly implemented 
that can have tragic consequences for those struck by the 
disaster. The House of Representatives Katrina Committee, on 
which Chairman Bill Shuster served, identified a few serious 
problems with the National Response Plan.
    Most significantly, the plan did not enable the President 
to get the professional disaster advice he needed during the 
disaster. It created new positions which confused the chain of 
command, and it did not result in a proactive Federal response 
when one was clearly needed.
    The second important reason for today's hearing is the 
National Response Framework is the most major document produced 
by the Department since Congress passed the FEMA Reform Bill 
last year. It is our first opportunity to see how well the 
Department is implementing the near unanimous reforms 
recommended by the major stakeholders.
    The FEMA Reform Bill required several changes to the 
National Response Plan that were based on the Katrina 
Committee's findings and the professional recommendations of 
almost every first responder association. Most importantly, the 
reform bill placed the responsibility and authority for 
managing all aspects of an incident under FEMA and required the 
administrator to have professional emergency management and 
homeland security qualifications. This means the administrator 
has primary responsibility for, one, preparedness, including 
planning, training and exercises; two, for response, including 
managing and coordinating the Federal response; three, 
recovery, including individual assistance and infrastructure 
reconstruction; and four, mitigation, including reducing the 
consequences of future disasters.
    The FEMA Reform Bill also made the administrator the 
principal emergency management advisor to the President and the 
primary Federal official responsible for managing and 
coordinating the Federal response to disasters. As far as the 
National Response Framework allocates roles and 
responsibilities within the government, it provides an insight 
into the actual role DHS has assigned to FEMA after enactment 
of the FEMA Reform Bill.
    With respect to the National Response Plan, the FEMA Reform 
Bill specifically required the plan to be changed to reflect 
the operational role of the administrator, to account for the 
unique requirements of a catastrophic disaster and to clarify 
that the Federal Coordinating Officer, FCO, and not the 
Principal Federal Official, PFO, is responsible for 
coordinating the Federal response in the field.
    Given the specific changes to the National Response Plan 
mandated by law, I find it particularly surprising the new plan 
does not mention the FEMA Reform Bill at all. Perhaps that 
helps explain why FEMA and the FEMA administrator are barely 
mentioned, and the administrator is given no operational role 
in the plan. I am not raising this issue because the FEMA 
Reform Bill came from this Committee or that it has to be done 
our way. I say this because these aspects of the bill were key 
recommendations of the major first responder and stakeholder 
groups. We have letters from the emergency management, fire 
services, law enforcement, city, county, State, and other 
professional associations calling for the specific reforms. 
These are the reforms the professionals thought necessary to 
fix a broken system at DHS.
    A properly constructed response plan should define the 
roles and responsibilities of the agencies involved, explain 
how decisions will be made and clarify who is in charge. Given 
the critical testimony of our expert witnesses and our 
Committee's own review, it appears the Department has a lot 
more work to develop an effective National Response Plan.
    Thank you again, Madam Chairman, for holding today's 
hearing. I look forward to the testimony and, obviously, the 
testimony from our distinguished visitors.
    Ms. Norton. Thank you, Mr. Graves.
    Does any other Member have comments he decides to make? Mr. 
Cohen?
    Mr. Cohen. Thank you, Madam Chair. I appreciate your having 
this hearing as well for I live in Memphis, Tennessee, which is 
a sister city to New Orleans, which suffered greatly 2 years 
ago and which is on the grid fall, the New Madras Fall, which 
gives it certain possibilities of earthquakes in the future. We 
have had other problems with what we call "Hurricane Elvis," 
but that was a wind shear that came through 2 years ago and 
caused one of the greatest urban disasters that went unnoticed 
by the national media. Utilities were out for over a week.
    I went down to New Orleans on my own time for the second 
anniversary of Katrina. This Committee was going to meet there, 
and for reasons, it cancelled the meeting, but I went on my own 
and visited. There is still much to be done in New Orleans, and 
of course, your plan today is to show what you have done since 
then to prepare. I saw a television show, I think it was 
Sunday. It might have been 60 Minutes but one of those type 
shows, and they said that less than 10 percent of the cities 
are prepared presently to respond to a disaster and to have an 
adequate disaster response plan and evacuation. There might 
have been an evacuation route. That is shocking, only 10 
percent of the cities, and they mentioned D.C. had some type of 
little, red and white insignia on the street signs.
    Most people do not know what they are. When I went to 
dinner last night on Pennsylvania Avenue, I thought I know what 
they are now. I do not know how good the ratings were for that 
show, though. So FEMA and other folks need to make people aware 
of what is already out there, but also the 90-plus percent of 
the cities that do not have a plan.
    I think I will wait a bit on my questioning, Madam 
Chairman, but there was some time ago that I had an issue with 
FEMA concerning ice.
    After writing you on July 18 and 19 and, among other 
things, being concerned about your lack of response to my 
inquiries, I received a response to my concern about your lack 
of response to my inquiries concerning the $70 million waste of 
ice that went on around this country. The response was on 
September 10. So, in responding to my inquiry about your lack 
of responsiveness, it took you 2 months and Chairman Norton's 
Committee hearing on the anniversary of 9/11 to thank me for my 
being patient.
    Well, I do not know that I was patient, but when you cannot 
respond to a Member of Congress about a $70 million boondoggle 
for 2 months, it makes me very concerned about every American 
cities' future when they are subject to some disaster whether 
caused by wind, rain, an act of God, or a misfeasance or a 
malfeasance by some Federal agency.
    What happened with that ice--and I still will wait for my 
questions--but as to the idea that you could not drink that 
ice, I drank that ice. I am fine. I want to hear the scientific 
evidence about the ice. It will be news to people in Alaska. I 
drank glacier ice. It was over 2,000 years old. I am fine. Now, 
maybe it was not wrapped in that bag, and I know that your 
response to say why it was not good is because the 
International Packaged Ice Association said it is not good 
after a year. Do you think the International Packaged Ice 
Association wants to sell you some more ice?
    Thank you, Madam Chairman.
    Ms. Norton. Thank you very much, Mr. Cohen.
    Mr. Walz of Minnesota.
    Mr. Walz. Well, thank you Chairwoman Norton for holding 
this hearing. I would also like to thank Ranking Member Graves 
and a special "thank you" to him for the attention he paid to 
the care on the I-35W bridge collapse in Minnesota. I thank you 
for that.
    I thank you, Administrator, for being with us today.
    We are here today to evaluate the National Response 
Framework, and many of us know a lot of this came out of the 
response to 9/11 on the 6th anniversary, which we are observing 
today. The earlier version had some glitches in it. It was 
looked at. We are back here today in the post-Katrina, I guess, 
era to take a look at this and, I think, in the right spirit, 
and that is why I thank the Chairwoman for being here, and I 
thank the director for being here to work this thing out for 
what is best for America to find where the weaknesses are and 
where the strengths are in doing so, and I want to say I am 
particularly looking forward to the administrator's testimony, 
and I say that not out--this is not an academic exercise for 
me.
    Three weeks ago, my district in southeast Minnesota was 
devastated by flash floods. We saw over 17 inches of rainfall 
in a 24-hour period in the community of Hokah, Minnesota. 
Damages to public businesses, private businesses and homes have 
already run into the tens of millions of dollars. I toured 
these areas, and I know that the administrator was there--
Administrator Paulison was there--and I know you were in 
Rushford, Minnesota, a town of about 2,400, that was literally 
almost wiped off the map in a matter of a few minutes.
    When we went into that town and saw it, there was a little 
island a church, part of a school and a city building where the 
emergency management was gathering and where the headquarters 
and the response team were gathering, and both were shuttling 
in and out of that city right on downtown. There were people 
climbing out of the second floor windows of those homes to get 
into those boats.
    I say this because I want to thank the administrator for 
being there. I said you took this job--if I am not mistaken, it 
is about your 2-year anniversary that you took this job, and 
quite honestly, it is not a very enviable one, but it is one 
that someone needed to step up and do, being fully aware that 
there were severe glitches and knowing that what happened in 
Katrina simply could not be replicated again.
    At this point, I am cautiously optimistic that what I 
witnessed in southeast Minnesota is what we would hope. I am 
noticing that, as to the framework here and things like engaged 
partnership, the unity of effort through a unified command, 
those types of things seemed to happen, and the people in 
Minnesota were--quite honestly, there were a couple of things 
that they were afraid of. They were afraid FEMA would not show 
up, and when FEMA did show up in a timely manner, led by the 
administrator and fulfilled the obligation that the people 
thought they were going to, there was a sense of real relief. 
There was a sense of, wow, this is fantastic. We need to get 
this to the point that no matter where it is at that people 
come to expect that, not hope that they got the lucky end of a 
straw or something. So I truly appreciate that.
    At this point, I am proud to say that I think Federal, 
State and local officials handled this incredibly well. We have 
got a lot of work to do yet. It is yet to be seen. The judgment 
on southeast Minnesota will come as we kick in many of the 
other agencies, but as to this initial response in 
understanding how it works and putting these things into play--
obviously, the Southeast Minnesota floods were devastating. 
There were seven individuals who lost their lives, thousands of 
homes, tens of millions of dollars in damage. It was not on the 
scale of Katrina, but the principals of leadership and the 
framework that underlie that can be the same, so I look forward 
to that.
    I thank you, Administrator, for being here. I thank you for 
your personal attention to my district and to what has happened 
so far.
    With that, I yield back, Madam Chair.
    Ms. Norton. Thank you very much, Mr. Walz.

   TESTIMONIES OF R. DAVID PAULISON, ADMINISTRATOR, FEDERAL 
 EMERGENCY MANAGEMENT AGENCY, DEPARTMENT OF HOMELAND SECURITY; 
    AND ROGER T. RUFE, JR., DIRECTOR, OFFICE OF OPERATIONS 
         COORDINATION, DEPARTMENT OF HOMELAND SECURITY

    Ms. Norton. Now we are pleased to hear from our Federal 
Government witnesses.
    Mr. Paulison.
    Mr. Paulison. Thank you, Chairwoman Norton, Ranking Member 
Graves, Congressman Walz, and Congressman Cohen. I appreciate 
the opportunity to come in front of the Committee.
    I am pleased to be here to discuss the draft National 
Response Framework, known as the NRF, which was recently 
released, just yesterday, for additional public comment. The 
NRF is the next generation document that FEMA, the Department 
of Homeland Security and our Federal, State and local partners 
will use when responding both to natural and manmade disasters. 
When adopted, it will replace the existing National Response 
Plan that has been in place and active since 2004.
    I think, Chairwoman Norton, it is altogether fitting that 
you call this hearing on September 11th as we honor those, as 
we did this morning, who lost their lives on that terrible day. 
It reminds those of us in emergency management and in the first 
responder communities why we come to work every day. Despite 
the risks, despite the long hours, men and women involved in 
every level of response across this country are dedicated to 
saving lives and to protecting our Nation. On that fateful 
September day, many of our colleagues and, quite frankly, 
several of my good friends lost their lives rushing into 
danger, not away from it.
    As the Bible teaches, "greater love hath no man than this 
that a man lay down his life for his friends." Truly, truly, 
these men and women showed their love for their fellow 
Americans on that day.
    It is important to note that, even as we work to streamline 
and update this document, we have robust and effective plans in 
place, and they have worked. While we are always working to 
improve our ability to serve the wider community and to address 
hazards of all shapes and sizes, our existing system was 
sufficient for the events that we faced this past year. In our 
response to the first storms of the hurricane season, most 
notably Hurricane Dean, and our response to the flooding in the 
Heartland, storms in the Northeast, tornadoes around the 
country, and other events, our existing plans and the 
implementation of changes based on lessons learned from 
Hurricane Katrina resulted in a very strong response, as you 
noted, Congressman Walz.
    This is not the FEMA of just a year ago. We are leaning 
forward. We are working hand in hand with our partners at every 
level of government as well as in the nonprofit and private 
sectors, and are providing improved services for the American 
people. This new framework will help us institutionalize those 
reforms and improvements. The draft NRF incorporates numerous 
comments we received through the process, and is based on real 
world experience of thousands of Americans involved in 
emergency management. Many comments addressed these same key 
issues and are addressed in this document.
    The result is an NRF that is user-friendly. It is focused 
on the basic facts that you need available at your fingertips 
while providing additional materials needed as companions. 
Still available but not overwhelming to the average user, it is 
a framework that is accessible to everyone involved in a crisis 
and easily referenced when time is of the essence. The ease of 
use is critical as the NRF is designed to guide all hazard 
response across America. It is built on the flexible, scalable 
and adaptable coordinating structure of the National Incident 
Management System, or NIMS. The NRF aligns key roles and 
responsibilities across jurisdictions. It links all levels of 
government, private sector business and nongovernmental 
organization. It is intended to capture specific authorities 
and best practices for managing incidents that range from 
serious but purely local to large-scale terrorist attacks or 
catastrophic natural disasters as we saw in Hurricane Katrina.
    But keep in mind that the National Response Framework is 
written for two distinct, vital audiences--senior leaders and 
day-to-day practitioners. Its clear, simple style makes serious 
work for the incident management, understandable to those who 
provide executive directions, including Federal department or 
agency heads, governors, mayors, tribal leaders, and city 
managers, who are not the day-to-day operators. Meanwhile, its 
annexes and related documents, including the new online or 
national resource center, provide added resources to emergency 
management practitioners, such as first responders and health 
officials, explaining the structures and tools routinely used 
at all levels of government.
    The NRF also identifies and clarifies the National Incident 
Response Doctrine and not just at the Federal level. It retains 
the same core principles in the National Incident Management 
System of which first responders from different jurisdictions 
and disciplines can work together to better respond to natural 
disasters and emergencies, including acts of terrorism. The 
National Response Framework presents core principles more 
clearly and includes them in a newly-described response 
doctrine that lays out how we respond. There are several core 
principles laid out here. One is engaged partnerships; a tiered 
response; scalable, flexible and adaptable operational 
capabilities; a unity of effort through unified command; and a 
readiness to act.
    Additionally, the NRF draws focus on preparedness. 
Effective preparedness is crucial, a crucial precondition for a 
successful response. The NRF draws a sharper focus on the value 
of preparedness, activities that improve response across all 
jurisdictions.
    In conclusion, let me simply state that a draft of the NRF 
is at a stage where additional review and comment is needed by 
the stakeholders at all levels of government and in the public 
and private sectors. These comments will be taken to heart so 
that, when the final NRF is released, it will truly assist in 
guiding and conducting all of those involved in all hazards/
incident management.
    Thank you very much.
    Ms. Norton. Thank you very much, Mr. Paulison, for your 
testimony.
    We go now to Admiral Rufe.
    Admiral Rufe. Good morning, Madam Chairman, Ranking Member 
Graves, Mr. Walz, and Mr. Cohen.
    I am Roger Rufe, Director of Operations Coordination at the 
Department of Homeland Security, and I am pleased to appear 
today alongside Administrator Paulison and the other witnesses 
later on. Thank you for inviting me to provide to you and your 
Subcommittee my evaluation of the development of the National 
Response Framework as it relates to the Office of Operations 
Coordination.
    The NRF, I believe, is an important step forward for DHS 
and for interagency coordination in that it captures and 
formalizes critical structures and processes we are now using 
to provide situational awareness and to manage a broad spectrum 
of events. Since Hurricanes Katrina and Rita, DHS has 
undertaken a systematic effort to ensure that there are more 
robust and coordinated preparedness and response structures in 
place to deal with all manners of incidents. We have taken the 
post-Katrina recommendations provided by the White House, the 
Congress, the GAO, and others very seriously, and are making 
enhancements to DHS operations. Let me highlight for you this 
morning just three of these post-Katrina enhancements that are 
a part of the NRF.
    One of the recommendations from the Katrina Lessons Learned 
Report was that a National Operations Center be established and 
that it act as a single information reporting system for all 
departments and agencies. In May of last year, the NOC was 
established. It is comprised of five elements. One is the watch 
section from the old multiagency Homeland Security Operations 
Center. Our second is the intelligence and analysis watch and 
warning branch. A third is FEMA's National Response 
Coordination Center. A fourth is the Infrastructure Protections 
National Infrastructure Coordination Center. The fifth is the 
NOC planning element.
    Taken together, these five elements of the NOC compromise 
the principal operations center for DHS and provide situational 
awareness and a common operating picture and operations 
coordination for the Secretary as he carries out his 
responsibilities as the Principal Federal Official for domestic 
incident management.
    The second recommendation that was made in the Katrina 
After Action Report was the need for a Federal planning 
system--a planning process--and recognizing that within the 
Federal Government while there were business and budget 
planning processes in place outside of the Department of 
Defense, there was no standardized contingency or crisis action 
planning system for the Federal Government. We have taken that 
on in my office, and we have developed a national planning and 
execution system, NPES, which is a five-phase, national-level 
planning process that has been very broadly adopted by the 
interagency. In fact, we have trained over 500 people in the 
interagency in this process, and they are using that to develop 
their crisis action plans.
    The third element that I want to touch on is that the 
Katrina after action recommendations included the creation of a 
permanent planning body within the National Operations Center. 
The mission of the NOC planning element is to provide 
contingency and crisis action incident management planning in 
support of the Secretary's national level domestic incident 
management responsibilities articulated in the Homeland 
Security Act and in HSPD-5. This planning element is 
compromised of some 53 members of the interagency--15 are full-
time; 38 are part time, but all of them come from the key 
elements within DHS as well, as from virtually every agency 
within the Federal Government, to put together national level 
Federal interagency strategic plans to address the 15 national 
planning scenarios. These strategic level plans will identify 
the roles and responsibilities of individual departments and 
agencies in the event a given scenario were to occur.
    So those are the three items I wanted to bring to your 
attention this morning, Madam Chairman, and I look forward to 
your questions.
    Ms. Norton. Thank you very much for that testimony, Admiral 
Rufe.
    Now I would like to give both of you the opportunity to 
respond to the testimony we are going to receive from 
witnesses. Obviously, you as Federal officials are testifying 
first. Before I indicate the predicate to this question, I am 
going to ask you to forward to the Committee a copy of the 
draft National Response Framework plan that was submitted to 
the Department of Homeland Security by the Drafting Steering 
Committee in the spring of 2007.
    Do you understand what the Committee wants?
    Mr. Paulison. No, ma'am, I did not. Could you repeat that 
again?
    Ms. Norton. I am asking you to forward to this Subcommittee 
a draft of the National Response Framework plan that was 
submitted to the Department of Homeland Security by the 
Drafting Steering Committee in the spring of 2007. Now do you 
understand? There was a draft submitted to the Department of 
Homeland Security, apparently a drafting committee from FEMA. 
We would like that submitted within 30 days to this 
Subcommittee.
    Mr. Paulison. There were literally dozens of drafts back 
and forth, but I will give you----
    Ms. Norton. The final draft is all we are interested in 
that you submitted to the Department of Homeland Security.
    Mr. Paulison. Again, there were literally--I understand 
what you are saying, and there were literally dozens of drafts 
back and forth. We worked on this thing all summer.
    Ms. Norton. Well, I can understand that. Let me be clear. I 
do not want anyone to say, "We did not understand what the 
Chair was asking for."
    I want the first submission of the final draft--and I am 
giving you the date, spring 2007--that you submitted, and they 
may have come back with questions, and there may have been a 
back-and-forth, but I am being very specific in what I am 
requesting, and I am requesting it within 30 days. I am not 
requesting at this time all the back-and-forths. I want to know 
what was originally submitted. I know what finally came out 
because the Subcommittee has the document.
    Mr. Paulison. I understand your question.
    Ms. Norton. Thank you. The date is March 13th, 2007. It is 
that submission we are asking for.
    Now I would like--in order to be fair to the 
administrators, I warned you that there was caustic criticism 
coming. The only way for us to judge it is to give you an 
opportunity to respond to it, so I am going to ask you, I will 
give you a sample of the kinds of things that are coming 
forward in the testimony that will follow. Here is one comment.
    "the draft framework overlooks the concerns that helped 
shape the legislation Congress enacted and would put the Nation 
at risk to some of the same systemic failures that hobbled the 
Federal response to Katrina."
    So it is alleging that--this comment, which we take as 
fairly typical of the comments we received, alleges that you 
did not abide by the legislation and that, therefore, some of 
the same failures that FEMA encountered would be repeated.
    Now, secondly, "Unless revised, the framework"--well, let 
me just start with that.
    Mr. Paulison. I guess part of my concern is that this 
report just came out yesterday. So to have comments on it 
without thorough review, I find----
    Ms. Norton. Well, you know that they are reviewing the 
draft report. The draft report was submitted to all of the 
State and local agencies, and those who are commenting are 
commenting on the draft report.
    Are you saying to me that the draft report has nothing in 
common with----
    Mr. Paulison. It has lot in common. The problem is this is 
only one piece of it.
    Ms. Norton. Well, respond to the concern then.
    If you are saying, first of all, that that is not true 
because we, in fact, used the legislation, then tell us how you 
did, and you will tell us what failures that hobbled the 
Federal response to Katrina will be overcome by this document. 
That is the way to respond to it, not to say, well, they have 
not seen it.
    Mr. Paulison. Well, there is a lot they have not seen. At 
the resource center where we set up all the annexes that lay 
all of this out does follow the Pre-Katrina Reform Act.
    What this document does do is it does very clearly define 
the roles of local, State and Federal Governments. It also 
brings in the private sector and the nongovernmental 
organizations, the volunteer agencies. It also has a separate 
planning section that the other National Response Plan did not 
have.
    This document is going up for review again. If there are 
specific comments that the users have, we want to see those. 
This is going to be a collaborative effort. This is a draft 
document. However, I do feel very strongly that it does answer 
a lot of those questions that happened in Katrina. I went 
through the same issues during Hurricane Andrew.
    Ms. Norton. All right, Mr. Paulison. We understand.
    Let me let Admiral Rufe take a try at this. These are very 
specific, very caustic criticisms, and I would like a specific 
answer as possible. The public is going to hear a lot of 
caustic testimony. If I were in your position and somebody said 
to me that I did not follow the law, I would then cite ways in 
which they did follow the law, Admiral Rufe, and if somebody 
criticized my draft and said it is going to subject us to the 
same failures we had with Katrina, my answer would not be, 
"Hey, look. We are not going to comment. Maybe we will do 
better." My answer would be, "No, we do not. This is the way in 
which we will not have the same systemic failures we had in 
Katrina." It is that kind of specificity, it seems to me, that 
can overcome the criticism that will be forthcoming from the 
testimony that we will be receiving, and I am trying to give 
you a fair chance to rebut it.
    Admiral Rufe. Thank you, Madam Chairman.
    The only thing I would say is I support the administrator. 
One, this was just released yesterday, but more importantly, 
attacks like that which are of a such general nature do not 
allow you to get at the issue that these attacks are being 
directed towards. If there are specific shortcomings in the 
draft that people are concerned about, we can address those, I 
hope, during the comment period rather than having these 
general, what I consider to be, pretty broad attacks that are 
not based on any kind of specifics and that are not helpful, 
and if we can get to the specifics, we will be able to address 
those during the comment period.
    As the administrator said, this is a draft. We are looking 
for those kinds of comments. We want to improve it. We would 
like all of the stakeholders to be involved in the process of 
improving it and in making it a better document.
    Ms. Norton. I do want to say for the record that the draft 
that the expert witnesses saw is almost the same as the 
document we have before us, so I do not think the government 
can hide behind some notion that they are responding to a 
different draft. We looked very closely at that before 
accepting those comments.
    Yes, go ahead.
    Mr. Paulison. I was just going to say that we are not 
hiding behind anything. This is a draft document. We feel like 
it is a very good draft document. However, if we were putting 
it back out on the street again after receiving over thousands 
of comments on the original one and if there are specifics in 
here where people do not think we have addressed all of issues, 
we want to know what those are, but we feel that we have.
    Ms. Norton. Well, let me also be fair to those who are 
going to come. I have, obviously, tried to summarize what they 
said. Although I quoted them, I could not give you all of the 
particulars. They are going to come forward with them. I just 
wanted to make sure that you had the opportunity to respond to 
it.
    Understand that the reason I picked this one out is because 
this particular comment, among many others, I must say--and we 
tried to pick out comments that we thought were fairly 
typical--said that DHS and FEMA overlooked the concerns that 
helped shape the legislation, suggesting that the act, itself, 
is being violated.
    Now let me go to another comment that was typical. "unless 
revised, the framework will create new confusion over roles at 
the very top of the system." Now let me explicate what they had 
in mind.
    Every single expert says that the so-called "PFO"--I hate 
these titles, and I will say to the general public please 
forgive me. This is so typically bureaucratic, but you have to 
name them something. The role of the PFO, who is the appointee 
of the Secretary--that is not in our statute. That is somebody, 
I mean, the Secretary could appoint me. He could appoint 
anybody in the audience. This person does not have to have any 
expertise. That person's role and the role of the Federal 
Coordinating Officer, we call him the "FCO." Now, he is 
appointed by us. That appointment is in the statute, and that 
is a legal officer. Now, say the experts, there is total 
confusion over those roles, and let me explain why that is 
important to us.
    Why that is important to us, to be very particular about 
it, is that, in the confusion over Katrina--when we sent 
Admiral Allen down, this confusion was the first thing that 
arose. There was a person who reported to the Secretary. There 
was this person who said, "Well, I am in the statute." 
Everybody on the ground said, "Well, who is in charge here?" 
Congress took note of that as part and parcel of the confusion.
    So what the President did there, seeing the confusion was 
real, was to make Admiral Allen both the PFO and the FCO, in 
other words, to give him both positions. Well, what Congress 
did in saying let us clean this up once and for all, Congress 
said, ``Okay; since we are trying to empower FEMA within the 
Agency to do its job and not be a hang-on bureaucrat of DHS,'' 
I will tell you what, says Congress in the Post-Katrina Act. 
The PFO, our guy in the statute, sorry, the PFO is prohibited 
from having directive authority, to make directives, replacing 
the incident command structure in the field. It was real clear 
and came out of the evidence.
    Now come the experts, and they say, "Well, wait a minute. 
These two officers are still in the document. If, in fact, you 
are a Federal official, will you look at this chart." See how 
confusing that is? You go in, and you say, "Well, here I am in 
the middle of a hurricane. Here I am in the middle of an 
earthquake. Who do I ask for something?" say everybody, 
everybody who responded--the State and local officials, the 
experts who were unconnected from any of them. There is still 
rank confusion between these two officers.
    I ask you to say to me why that confusion is in the 
document, at this late state, given the fact that the Post-
Katrina Act went to great lengths to dislodge one officer from 
his responsibility and to give the other the existing 
responsibility. That is the very specific question I am putting 
to both of you.
    Mr. Paulison. The very specific answer is there is a very 
clear definition and separation of the FCO and the PFO.
    Ms. Norton. Describe that separation.
    Mr. Paulison. The separation is the PFO will not oversee 
what the FCO does. The PFO will not be the FCO.
    Ms. Norton. But what is his role and mission?
    Mr. Paulison. The role of the FCO is to run the work out of 
the JFO, run the day-to-day operations.
    Ms. Norton. What is the role of the PFO? He is the 
representative of the Secretary. Is he going to be on the 
ground?
    Mr. Paulison. The PFO may or may not be on the ground, 
depending on the type of----
    Ms. Norton. If he is on the ground, what does he do, and 
what do you say to the people in Missouri or to the people in 
Tennessee about who is in charge on the ground and who he 
reports to?
    Mr. Paulison. If the people in Missouri want to know who to 
go to for that disaster, they go to the FCO. The PFO is out 
there as the Secretary's representative to help with overall 
incident, Federal coordination among agencies. The FCO is going 
to run that day-to-day operation. Now, the----
    Ms. Norton. What day-to-day operation is he running?
    Mr. Paulison. Of all of the Federal assets that are on the 
ground.
    Ms. Norton. Well, what in the world is the FEMA guy, the 
FCO, doing then? If he is not running all of the assets on the 
ground, but the Secretary's representative is, I am still 
confused about who is in charge.
    Mr. Paulison. The FCO is in charge of anything that has to 
do with the operational component of that disaster. If an 
emergency manager needs anything from FEMA or from the Federal 
Government, they go through the FCO. The PFO, again, is the 
Secretary's representative on the ground. If it is a 
catastrophic event--in Hurricane Dean, where we had a category 
5 storm predicted to come into Texas, we did not have a PFO, 
but we had an FCO. The Secretary did not deem it necessary to 
have one.
    Ms. Norton. The staff has given me the language to show you 
why we are concerned, gentlemen. The staff has given us the 
language from your report, and it says the national--your 
report. The National Response Framework says that the PFO--that 
is the Secretary's representative--will coordinate and is the 
lead Federal official.
    Now, Admiral Rufe, I have to ask you because I expect that 
somebody who has been in the military understands, as many of 
us out here in civilian life do, and particularly in 
bureaucracies which overlap all the time--I mean, we pass laws 
which make them overlap. If you have worked up to the rank of 
admiral and you have heard what I have just said, first, I 
would have to ask you whether you have ever worked under a 
command structure like that.
    Mr. Paulison. Are you asking me or the Admiral?
    Ms. Norton. The Admiral.
    Admiral Rufe. Yes, ma'am. This is actually a command 
structure that is very familiar to people in the Coast Guard 
because it is what is used in responding to oil spills. We have 
a unified command. There is not a person in charge. It is a 
coordinated effort at the top.
    Typically for a major oil spill, for an example, the 
unified command structure, which is a structure under NIMS, 
calls for the Coast Guard's principal--I forget what they call 
it now--the on-scene coordinator, the Coast Guard's on-scene 
coordinator; the responsible party's lead, who is the spiller; 
the State official, and others just as you see in this diagram, 
which seems confusing, but actually, it works quite well. They 
practice that way. They train for that.
    Ms. Norton. Admiral Rufe, I understand that they practice 
that way. It did not work well in Katrina, and we fear that 
this person on the ground brings confusion, but most of all, we 
fear that you did not follow what Congress said to. Let us 
assume that it works wonderfully well for the Coast Guard. The 
Congress, in its wisdom or lack thereof, chose another course, 
and it put it in plain English in the statute. Now, we are 
always prepared to hear, for example, evidence from the Agency 
that, in the last emergency, we found that the PFO needed to 
play a role; therefore, we asked for the statute to be amended. 
The fact is that the Post-Katrina Act is an amendment of the 
statute, and we cannot discern that the Act was followed in 
this regard.
    Before I ask further questions, I am going to go to Mr. 
Cohen.
    Mr. Cohen. Thank you, Madam Chairman.
    First of all, I want to thank the Director, and he has a 
background as a firefighter, and I have always had an 
appreciation for their work, and being from Miami, you know 
about emergency preparedness, and you know how important it is 
to a community. So I am pleased that you are in the position 
you are in, and I have heard many good things about you. Having 
said that, and not wanting to appear frozen in place, I want to 
go back to ice.
    Explain why it took 2 months to respond to my letter.
    Mr. Paulison. Sir, I cannot do that. That is unacceptable. 
You should not have waited that long for a response, and I, 
first of all, apologize for that, and we have put a system in 
place to make sure that does not happen again. We are putting a 
tracking system in place. We have hired an executive secretary. 
When I took over FEMA, we were 800 correspondences behind, and 
we are pretty much caught up with those, but there is no excuse 
for that whatsoever. It should not have been that long. It 
should have been a matter of weeks, not months.
    Mr. Cohen. Thank you, sir. Thank you.
    In your letter to me, you expressed that you tried to find 
some folks to use this ice, and you could not find any. Then 
later, once you decided to make it available to the public and 
some people came forward, the initial efforts to find 
recipients where there were none found were through the General 
Services Administration, which is the Federal Government, the 
seafood industry, the United States Forest Service, and 
nonprofits.
    Did you look to local and State agencies and governments 
and ask them if they had any need or if they could help in 
giving notice to 501(c)(3)'s or to other charitable groups in 
their communities?
    Mr. Paulison. No, sir. A lot of the ice we could not get 
certified as "potable." I know you said you drank it and tasted 
it, and you are fine, obviously. We could not take that chance 
with the whole system that FEMA had been using for years with 
the ice. As we go into our new type of logistics, we are not 
going to store ice anymore. We are using third-party logistics 
where you are using a just-in-time delivery system. So I know I 
am making this a long answer, I do not mean to do that, but the 
answer is we tried to find somebody to take the ice, and we 
gave away 600,000 pounds of it just recently to a concrete 
company in Memphis that needed to cool the concrete down, and 
it was used for things like that.
    Mr. Cohen. I appreciate that, and I understand that. Let me 
ask you this: I would just think, and maybe I am wrong, that 
when you gave out your notice and did not get any responses, 
you only gave it to certain Federal agencies and to the seafood 
industry. If you had given it to local and State governments 
and said, "hey, put out a bulletin," maybe some people would 
come have forth. When you finally did make it available, this 
group did come forward, and the 600,000 pounds of ice were use 
for nonpotable purposes.
    If there had been a better distribution system for other 
commodities in giving notice that we were not going to have ice 
in the future and so it could be used before its shelf life 
expired, it could have been done, and it just seems like that 
was not well thought out.
    Do you just accept the bag industry's 1-year shelf life or 
has there ever been any scientific study on this or Eskimos who 
have passed away or something?
    Mr. Paulison. No, sir, not that I am aware of. I do not 
think there has been a study on the Eskimos' eating ice.
    There has been the standard of a year for that. I know as 
to all the stuff that we put out when I store ice at my house, 
which I do for the hurricane season, I always throw it out, 
generally, after 6 months. I do not keep it much longer than 
that. A year is an industry standard. I do not know if there is 
any scientific basis behind that.
    Mr. Cohen. Being that you accepted the fact that it was 
nonpotable, which I still kind of find difficulty with--and I 
will be honest with you. When I was in New Orleans, there was a 
fellow down there. Well, I should not really give his testimony 
away, but he said that he had never heard of any such thing as 
an ice expiration date.
    If it were the expiration date that you honored, why was it 
not disposed of in Memphis where people could go at first and 
pick it up, not be fenced in and take it home and drink it?
    Mr. Paulison. Perhaps we could have done that. We stored it 
for hurricane season. We did not have any hurricanes that year. 
I cannot help that part of it. If we had had a hurricane season 
like was predicted, we probably would have used almost all of 
that ice just like we did the year before, but we did have a 
corps come in and test that ice, and the corps would not 
certify it as potable, usable ice. So that was part of the 
decision-making also. It was not just the industry 1 year.
    Mr. Cohen. I think, if you would try to give more notice to 
folks so they could use it, it might work.
    Let me ask you about the formaldehyde in those trailers.
    Ms. Norton. Could we ask that you wind up this line of 
questioning shortly so we can get back to our other witnesses 
who are waiting?
    Mr. Cohen. Oh, we are under the 5-minute rule. I did not 
see the clock ticking.
    Ms. Norton. Well, actually, we took more than 5 minutes 
because we are trying to devote as much of the hearing as 
possible to the plan, but we are pleased to have the gentleman 
ask his questions on formaldehyde.
    Mr. Cohen. As to the formaldehyde in the trailers, is it 
true that you all, for fear of some type of action against you, 
did not want to give notice to the public about the danger?
    Mr. Paulison. No, sir. After that e-mail that came out from 
our general counsel, there was literally an 8-hour delay before 
we took action and started notifying people. There was nothing 
purposeful in keeping people from being told that there was 
formaldehyde in trailers. We had already put flyers out. We 
continue to do that. What we are doing right now is actually 
moving people out of those trailers as quickly as possible. CDC 
is moving in to do some testing to really give us a "no 
kidding," scientific basis of what do we really have. FEMA has 
used these trailers for 20 years. They are the same ones you 
buy off the lot. We bought thousands right off the lot. So, if 
there is a problem with the trailers, then it is truly an 
industry problem. So we have stopped sales of the trailers. We 
are making a very concerted, high-intensity effort to move 
people out, particularly in the group sites, to get them into 
hotels, motels and apartments. We are going to make sure that 
we do everything we can do to move people out of harm's way.
    You know, secondly, we are not going to use travel trailers 
anymore. If we are going to use any type of manufactured unit, 
it strictly will be mobile homes.
    Mr. Cohen. Thank you.
    Thank you, Madam Chairman.
    Ms. Norton. Thank you very much, Mr. Cohen. The next 
question is a very important one because it goes to the issue 
of implementation of the plan.
    Now, you received, you and FEMA, Mr. Paulison, received a 
draft from your own steering commission. It does seem to me 
that is regular order because that steering commission 
consisted of, among others, particularly State and local 
officials. No plan gets implemented from Washington. It is 
either done in the field or it is not done. We can go in to 
assist, we can send in the resources, we can send in FEMA. But 
it is on the ground that these plans must be submitted.
    Some of the most costly criticism has come from State and 
local officials. Typical of the statements is this one: The 
collaborative and cooperative process in rewriting the document 
failed. The State and local responders allege that after 
submitting the draft to you in FEMA, Mr. Paulison, that there 
was no response back even though you yourself say that the plan 
was submitted to the Department of Homeland Security with many 
drafts going back and forth. The people on the ground say they 
were excluded from this process and that you went into a mode 
of secrecy from them. Please respond to that criticism, you and 
Mr. Rufe.
    Mr. Paulison. I categorically reject that. We had over 700 
people provide comments on the old NRF into developing the new 
one. We took those comments and then right after that we 
brought the steering committee together to condense those down 
into 17 areas. At that point we took 120 days to put a writing 
team together. And the writing team did have emergency 
management experts on it, although there were FEMA employees 
from Emergency Management Institute and others, to take those 
comments from those 700 people.
    Ms. Norton. The 700 people from where?
    Mr. Paulison. The 700 people were from the emergency 
management community, the fire community, the police community.
    Ms. Norton. Were these the steering committee people?
    Mr. Paulison. I have a list of the steering committee. It 
should have been in your packet.
    Ms. Norton. Were these 700 people--you talk about 700 
people. I am talking about the steering committee. Are we 
talking about the same group of people?
    Mr. Paulison. It is part of that. The steering people 
wasn't 700 people, but it was a large group.
    Ms. Norton. Who are the 700 people?
    Mr. Paulison. From all across the emergency management 
community.
    Ms. Norton. So there were a steering committee and then 
there were other State and local officials.
    Mr. Paulison. We received comments in on the National 
Response Plan, and the steering committee took those comments 
and went through those and broke those down into 17 buckets, so 
to speak, of 17 different areas. We then took those that the 
steering committee put together. And I put a writing team 
together to put this document together to make sure that all--
--
    Ms. Norton. Was anybody from the steering committee on the 
writing team?
    Mr. Paulison. No, there was not.
    Ms. Norton. Why not?
    Mr. Paulison. The steering committee did their job. Our job 
was to put the writing team together.
    Ms. Norton. I asked was there anybody from the steering 
committee, not was the whole steering committee there.
    Mr. Paulison. No, there was not. We had emergency 
management experts on there.
    Ms. Norton. Were there State and local officials on the 
writing committee?
    Mr. Paulison. No, but I had the past Director of the 
Emergency Management Institute on there. I had the key person 
that teaches the emergency managers, that teaches the course 
work on that writing committee. We had a lot of experts on 
there putting the comments together, writing this draft plan, 
making sure back and forth, back and forth that we had 
everything in there from the comments that we had as we could 
possibly get in there. Now that it is done it is going to get 
back out to not only the steering committee, but also to a 
larger steering group for getting comments back in. This is 
going to be a collaborative effort.
    Ms. Norton. That explanation is important. Let us make sure 
we are talking about the same period. Once the draft was sent 
to Homeland Security, apparently many changes were made. These 
State and local officials allege they were not included in 
consultation.
    Mr. Paulison. Chairwoman, we took all the comments we could 
possibly get.
    Ms. Norton. But were they included or not once the plan was 
submitted to the Department of Homeland Security.
    Mr. Paulison. The plan was not done to go back out yet. 
This is a plan to go back out for review.
    Ms. Norton. These are the people who thought they were 
entitled to more than review, I guess we should tell them that, 
that although parts of the steering committee, they are only 
entitled to review like everybody else even though they wrote 
the initial plan. Is that what you want us to tell them?
    Mr. Paulison. No, ma'am, they did not write the initial 
plan. We were putting the plan together with a writing team 
making sure we incorporate all of their ideas and all of the 
comments, and we think we have.
    Ms. Norton. Well, again, we could have a situation here 
where--a hubris. That is to say we weren't part of it. And that 
is why we wanted to give you an opportunity to respond. The 
reason we took these comments so seriously is that we could 
find nobody in the State and local emergency management 
community that differed from these comments. And because these 
comments were so caustic that the final document as far as they 
are concerned does not bear resemblance to the document they 
submitted. And for us that is the ball game. There is not a 
thing you can do out in California or in Illinois. So if these 
folks who got to do it says this is not what we submitted and 
we wouldn't mind except when they went back and forth we 
weren't included, you must understand that the Congress has to 
take that very seriously since the whole intent here was to get 
an extremely collaborative process going. So that if you 
disagreed, in the end they could say, look, at the end we 
disagreed, but we were kept informed until the very end, and 
that is not what they say or will say when they testify.
    Mr. Paulison. I would hope, and I understand what you are 
saying, I really do, I would hope since we put the document out 
along with all of the annexes, along with the resource center, 
which is on the Web site, I would hope that once they review 
that and comment back, that they would see that it does 
incorporate everything that they have asked us to do.
    Ms. Norton. Wait a minute. I am not going to let you go 
back to what we have already established for the record. And 
for the record we have established that the draft plan that 
they have seen and commented on does not differ materially from 
your final National Response Plan.
    Mr. Paulison. But it does, it does differ, because this was 
just a piece of it. The rest of it is in our annexes that they 
did not see, the Web site that they did not see with our 
resource center.
    Ms. Norton. So you are convinced that once they see the 
whole thing, they will see that this is what they had in mind.
    Mr. Paulison. And if it is not, there is 30 days to review 
this 78-page document and 60 days to review all of our annexes 
and the Web site. And it will be a collaborative effort.
    Ms. Norton. Could you again, your testimony it seems to me 
would be more credible to us if you could indicate some ways in 
which the plan from the steering committee needed changing and 
that you changed. Give us some examples, then perhaps you can 
understand. Because after all, they were dealing at the State 
and local level and you are dealing in another level.
    Mr. Paulison. I have to go back to what I said earlier, is 
that this plan went back and forth inside our organization, 
back and forth with Homeland Security making sure we dealt with 
the two most important pieces. One is obviously the users that 
are out there, the State emergency managers, local emergency 
managers, the fire and police chiefs, those that have to use 
it. But the second piece that we have missed, and one of the 
reasons that we had issues with Katrina, part of it, was the 
fact that our local officials at the local level, at the State 
level or appointed officials at those levels, come and go quite 
often. And they were not part of the initial mass response 
plan. So we wanted to make sure that there was a piece in here 
that they could quickly pick up and learn and understand what 
their role was. And we think we captured that.
    Now, the big in-depth piece of it is in the annexes that is 
not part of this, it is separate. Our on-line resource center 
is part of it that the State emergency managers are going to be 
using. I wish that I had had this when I went through Hurricane 
Andrew. I wish that my Governor had it, Governor Lawton Chiles 
had it, because we had a major disconnect in what role each was 
supposed to play. And this I think clarifies this. If it does 
not clarify it in the minds of our State and local emergency 
managers, then they need to tell us very specifically what we 
need to clarify to do that.
    We have a consortium meeting this Thursday with all of 
these people being involved to go over this again in Chicago. I 
think most of the people behind me will be at that meeting. And 
then we have the 30-day process also. It is going to be 
collaborative. If it needs to be tweaked, if it needs to be 
changed, we want to hear what they think has to be done.
    Ms. Norton. I have only one more question. Admiral Rufe, I 
ask you to respond to what has just been said. But I would like 
you both to understand that a part of this is built in. Once 
upon a time there was a FEMA and none of these questions would 
have been relevant, not a single question I asked today would 
have been relevant. Because that FEMA reported to the President 
of the United States, was like a special force that just went 
underground and got it done. You knew who was responsible. 
There wasn't any back and forth between some super agency. 
Well, we created a super agency and there was a disagreement 
between committees as to whether or not we should return to 
what seemed to work, which was a direct line to the President 
of the United States, or should struggle within this 
bureaucracy. And I must say that today's testimony seems to me 
to put you in a struggle. The steering committee gives you a 
document. There is a reason why we go to the Department of 
Homeland Security, although we are talking about all hazards. 
And that is one of the concerns of the committee. We are 
talking about all hazards. What FEMA says goes for any hazard. 
Goes for a terrorist attack, which is clearly where the 
Department of Homeland Security has been focused all along, 
even though the only thing that is predictable are natural 
events. But all hazards from the beginning meant everything. 
What we are asking you to do is to mediate between what you are 
told from people on the ground and some people in Washington 
above you, an agency we have set up, tell you to do or not do. 
There is no Federal emergency management experience in the 
Department of Homeland Security. It is all in FEMA. So we are 
at a loss to figure out what in the world they are telling you, 
so that there is so many back and forth drafts. From who? Who 
knows anything what he is talking about? Who is a Federal 
bureaucrat sitting in an agency over top of you, of which you 
are a part to be sure, who has no Federal emergency management 
experience, whether it is Admiral Rufe or anybody else? Now, 
Admiral Rufe, do you consider yourself a Federal emergency 
management official?
    Mr. Rufe. Yes ma'am, I do. I have had 34 years experience 
managing emergencies in the Coast Guard; search and rescue, 
response to oil spills, response to natural disasters.
    Ms. Norton. So you would have been, it seems to me, very 
helpful in advising FEMA, but you are in the Department of 
Homeland Security, sir.
    Mr. Rufe. If I may, just to indicate to you what some of 
the roles are respectfully of the Secretary that are in statute 
and that are important and that are complimentary to what FEMA 
is doing, let me give you a couple of examples. The Secretary 
is the----
    Ms. Norton. Is it the Post-Katrina Act that we have focused 
on?
    Mr. Rufe. Yes, ma'am. The Post-Katrina Act made some 
important changes to the way we manage emergencies. It did not, 
and I emphasize, it did not undo the Secretary's responsibility 
for being the principal Federal official for domestic incident 
management.
    Ms. Norton. And we are not suggesting it does. We are 
suggesting that the Post-Katrina Act looked to focus and locate 
emergency management experience in the agency we created and 
not in the Department itself.
    Mr. Rufe. Let me give you one experience that is just very 
recent that might give you a sense of when the Secretary is 
engaged where FEMA does not really have a role. Just a month or 
so ago we had what we thought was an outbreak of foot and mouth 
disease in the Midwest. We were concerned about it. We didn't 
know whether it was a real incident or not. We didn't know 
whether it had a terrorist nexus. As it turned out, it didn't 
turn out to be a foot and mouth experience, but the cows were 
experiencing what appeared to be foot and mouth symptoms. We 
were engaged for 11 days. We had--that is the Secretary and I 
in my role as his principal adviser for this sort of an event. 
We were working with the economic advisers to the President 
because this principally would be an economic impact to us. We 
were involved with the Department of Agriculture, HHS, Custom 
and Border Protection, HSC and a whole host of others, 
intelligence, managing that incident. And it was not an 
emergency, it was an incident.
    Ms. Norton. That it seems to me is appropriate.
    Mr. Rufe. Pardon me.
    Ms. Norton. FEMA has jurisdiction when there is an 
emergency management declaration, and that is what we are 
concerned about here. We are not concerned about a foot and 
mouth disease rumor that you go out from the Federal agency to 
confirm or not. Of course if the President then decides that 
what we have is a national emergency, then of course you go to 
FEMA and say handle it.
    Mr. Rufe. Let me give you another emergency which doesn't 
have a FEMA role. A mass migration from Cuba. That is a role 
where the Secretary, as his role to lead the U.S. Coast Guard; 
It involves Customs and Border Protection----
    Ms. Norton. You have just given me a very appropriate role 
for the Department of Homeland Security that does not involve 
FEMA. So we do not allege, particularly given the role, the 
Department of Homeland Security has no role in matters that may 
be serious affecting our country. We do allege that the Post-
Katrina Act said that if we are talking about a Federal 
emergency, thatFEMA and FEMA alone has the jurisdiction and 
alone has the expertise.
    I have only one more question, and it is just a straight up 
and down question. If I were given your horrific task, and I 
don't want you to believe that the questions we have asked do 
not, or underestimate what a charge this is; hey, go and do a 
whole National Response Framework for the whole country, and by 
the way make sure that the private sector is included. That is 
pretty awesome. You have to sit back and fan yourself. So how 
do you even begin there? It seems to me that the first thing 
you do would be to line the act up and almost do a side by 
side.
    What does the act say, what does that mean I should do? We 
found it noteworthy, curious, that in light of the time that 
Congress put into writing the Post-Katrina Management Reform 
Act, in light of the tragic experience out of which that act 
was born, that the act itself was hardly mentioned in any 
meaningful way. It is as if the act was not a part of your 
thinking and that you just sat down to write a plan. In what 
way, if that was not the case, in what way did you measure what 
you wrote against the Post-Katrina Management Reform Act?
    Mr. Paulison. Actually we did use the document to make sure 
that everything we put in the National Response Framework----
    Ms. Norton. In what way I ask? In what way? I am looking 
for examples. Of course everybody will say of course we 
followed it. I am trying to allow you to respond to the notion 
of the expert that you did not in fact follow the act by 
saying, well, if you had the act on a side by side in what way 
do you say you followed the act. Chapter and verse, any 
example. I don't expect you to have all of them, but any 
example that follows the act.
    Mr. Paulison. I don't know if I can----
    Ms. Norton. Since it is not even cited in a footnote we 
have to ask you yourselves.
    Mr. Paulison. I don't know that I can give you exact 
examples. I do know that we made sure as we walked through 
putting the National Response Framework together, that 
everything was in compliance with the----
    Ms. Norton. Why? Did you submit it to your lawyers to see 
if it was in compliance, did you submit it to the Justice 
Department?
    Mr. Paulison. No, we did not submit it to those. We are 
capable of reading it, I think, and understanding it and making 
sure that what is in here is in conjunction with the Post-
Katrina Reform Act.
    Ms. Norton. In the future it might help the Committee and 
it might help your own testimony if a document referred to the 
act that in fact was responsible for its being drafted. When it 
is not referred to at all, when we have extraordinary criticism 
that it wasn't followed, you force me to ask in what way it was 
followed since the act itself is not cited in the act. And none 
of what you write do you say is in conformance with specific 
sections of the act.
    Thank you very much. We go to Mr. Cohen.
    Mr. Cohen. Thank you, Madam Chairman. I will just be brief. 
This being the anniversary of 9/11, one of the issues that came 
up in a previous Committee I was on was the firefighters, first 
responders there, who didn't have proper equipment at first 
when they were on the pile and folks who have had respiratory, 
serious respiratory problems, some I think have died. That 
seems like something that we should have had some planning for. 
At this point, particularly as a former firefighter, do we have 
a stockpile of equipment that we could supply if there is a 
tragedy that doesn't have a shelf life that we could provide to 
folk and have plenty of those available?
    Mr. Paulison. Yes, sir, we do. We have those scattered 
around the country where we can go and equip either a police or 
fire department should they in fact lose their equipment or 
should we have to staff another agency with those type of 
things. And we have those scattered around the country. 
Prepositions of what are called pods or something like that. I 
can give you a description of those, what is in them, and also 
give you a description of where they are. I can get that to 
your office, and it won't be 3 months.
    Mr. Cohen. Thank you, sir. It was just the testimony we 
received from the firefighters. And I read something about some 
folks this morning because I was reading about 9/11. And they 
should have had those regulators, I think they were, and they 
didn't.
    Mr. Paulison. They should have been wearing respirators the 
whole time. They were on that pile. And a lot of them were not. 
Another one of those sadly lessons learned from those types of 
things.
    Mr. Cohen. When I went there myself about a month after 9/
11, again just as a private citizen wanting to see it, but 
Mayor Giuliani was nice enough to have me get access. I guess 
he was nice enough, because I used the mask that somebody told 
me did me no good, so I breathed that air. Those masks they 
gave apparently don't do any good at all.
    Mr. Paulison. I am not sure what kind of mask you had.
    Mr. Cohen. Blue and white and they had a number on them.
    Mr. Paulison. Some of those work very well actually for 
keeping particulate out, if there is something in the air, like 
asbestos. If it is a chemical they don't help, but if it is for 
a particulate anything you wear helps some. But there are some 
better ones out there than what you are talking about.
    Mr. Cohen. I know it is the Corps of Engineers' 
responsibility, but if a Hurricane 4 or 5 hit New Orleans this 
year how are the levees, the system?
    Mr. Paulison. The Corps' description of the levees is they 
are as good as or better than they were during Katrina. 
However, they failed during Katrina. The ones that they rebuilt 
are much better. The levees did not fail. There has to be some 
concern since they probably were not challenged. There is a--I 
know the Corps is looking very seriously, I think there is a 
plan in place, on what the long-term rebuilding of the levees 
should be and what the cost should be. And I am pretty sure 
that is going to be coming to Congress.
    Mr. Cohen. And the wetlands are real important as a 
barrier. I flew over those, too, and they have been decimated. 
Are you involved at all with the efforts to replenish the 
wetlands or is that another department?
    Mr. Paulison. Yes, that doesn't, not that I am aware of, 
that it falls under FEMA, but it would be another department.
    Mr. Cohen. Madam Chair, I got here a couple minutes late, 
you may have said something, I don't know. But being the 
anniversary of 9/11, I think it is appropriate this Committee 
be working and shows the government is working. And FEMA has a 
high responsibility. They gave government, and it wasn't you, 
sir, you get good marks, but FEMA gave the government a black 
eye for not being able to respond. You have got a high 
responsibility and your people have a high responsibility, and 
you are our team. I just have to have confidence, will have 
confidence in you, and know that you have such an important 
mission to protect us if there is another terrorist attack, if 
there is another Hurricane 5 level in New Orleans or anywhere 
else. And so just we are going to have to count on you, and I 
appreciate you.
    I think back upon 6 years ago and seeing the TV of the 
second airplane hitting the towers. I think I read this morning 
that President Bush somehow imagined that he saw the first 
plane hit the tower, which is impossible because nobody saw 
that for some time later. Kind of like President Reagan I guess 
being at D-Day. Sometimes people get confused. But it was an 
awful event and a tragedy that we honor and remember today. And 
you as a firefighter, I am particularly pleased you are the 
head of that agency. And being a Floridian, I am a Memphian by 
birth, and that is my hometown. I have lived almost all my 
whole life there, but I have spent about 4-1/2 years in Florida 
in Coral Gables. I am 58. I think you are 59.
    Mr. Paulison. Sixty. I will be 61 in February.
    Mr. Cohen. Well, you got a few. I guess Gables played North 
Miami at some time or another. I know that you got experience 
with hurricanes, which I have been through too, so you will do 
your job. And I thank you for your service and Godspeed.
    Mr. Paulison. Thank you, sir. It is very humbling to have 
to tell you it is an awesome responsibility. And we are putting 
good people inside the organization. And I do appreciate--I 
know we get testy sometimes, but I do appreciate this Committee 
and its oversight. I really do.
    Ms. Norton. The responsibility is not any that anybody 
would relish and certainly a responsibility of writing this 
document is of the same order. I agree with the gentleman that 
the point is to inspire the confidence in the American people 
that if something happens we are ready. And that is why this 
oversight is so important. And why we are so concerned at 
differences here about whether we are ready and therefore 
whether we should have confidence. We don't intend to take any 
chances, not in this oversight. We do not intend for it to be 
said that, well, this Committee went pretty easy on them. And 
the first responder said that the document wasn't up to par, 
but there was testimony. And we said, well, may the good Lord 
protect us. We think God helps those who help themselves. And 
we have to straighten out what appear to be grave differences 
between the experts who have looked at this report and the 
witnesses whose testimony we have heard today.
    I will take your point that there will be 30 days when 
people can comment. I'm sure, let me just ask you, given the 
nature of the comments, if more time is needed than 30 days, 
would FEMA be prepared to allow more time for comments?
    Mr. Paulison. Yes. If we are still getting a lot of 
comments during that 30 days we will obviously extend that 
period.
    Ms. Norton. I appreciate that.
    Mr. Paulison. And don't forget they have 60 days to comment 
on the annexes and on the resource center.
    Ms. Norton. 60 days to comment on the annexes.
    Mr. Paulison. And the resource center. The 30 days is just 
for the base document. But again, if we are still getting more 
comments on the base document in the 30 days, we are very 
flexible on that. I have had a conversation with both the 
international emergency managers and also the national 
emergency managers behind me and have committed to them that we 
will make sure that during this 30 to 60-day period that we 
will be very collaborative and we will work together to make 
sure we have all their comments.
    Ms. Norton. Let me inform you of another action we are 
going to take to be fair to FEMA, DHS and to the first 
responders who have commented given what is clearly a 
disconnect between their view of the document. We are going to 
look for what is always regarded by the Congress as the most 
objective source. I am going to ask our ranking Member Mr. 
Graves to join with me in seeking in an expedited request to 
the GAO to conduct a review, a thorough review of how the Post-
Katrina Act is being implemented through the National Response 
Plan you have submitted. And that way we will be relying upon a 
source that has had no role in the document.
    We very much appreciate the very awesomely difficult task 
we have put you to. As you know, Mr. Paulison, I have always 
been willing to work closely with you. If we offer comments, we 
offer those comments not to say go and do better, we offer 
those comments to say go and work with us and together we will 
do better.
    Thank you Mr. Paulison, you, Mr. Rufe, for your important 
testimony today.
    Mr. Paulison. Thank you, Madam Chair.
    Ms. Norton. And let me call the second panel. We are 
calling Dr. William Waugh, Jr., who is Professor of the 
Department, or maybe I will say who they are as they begin to 
speak. Panel 2 and 3 we are joining together to save time. You 
are all offering your own critique of the report. And the way I 
am going to do this, I think probably as a matter of protocol 
we ought to start with those who are public officials first.
    So we will first hear from Tim Manning, who is the Chair of 
the Response and Recovery Committee of the National Emergency 
Management Association and who is Director of the New Mexico 
Department of Homeland Security and Emergency Management.
    Mr. Manning.

   TESTIMONY OF TIM MANNING, CHAIRMAN, RESPONSE AND RECOVERY 
   COMMITTEE, NATIONAL EMERGENCY MANAGEMENT ASSOCIATION AND 
   DIRECTOR, NEW MEXICO DEPARTMENT OF HOMELAND SECURITY AND 
 EMERGENCY MANAGEMENT; AND ROBERT C. BOHLMANN, CHAIRMAN, U.S. 
  GOVERNMENT AFFAIRS COMMITTEE, INTERNATIONAL ASSOCIATION OF 
 EMERGENCY MANAGERS AND DIRECTOR, YORK COUNTY, MAINE EMERGENCY 
                       MANAGEMENT AGENCY

    Mr. Manning. Madam Chair, good morning. Over the past 
calendar year I have served as the NEMA representative to the 
Department of Homeland Security/FEMA National Response Plan 
Senior Interagency Steering Committee, which has overseen the 
updates to the NRP. As I come before you today, NEMA has two 
significant issues related to the National Response Framework, 
the NRF.
    First, the current draft of the NRF must be reworked to 
reflect the true operational plan or an additional document 
must be drafted immediately to replace the NRP.
    Second, the collaborative and cooperative process in 
rewriting that document has failed. On September 11, 2001, the 
Federal Government responded to the attacks using the Federal 
Response Plan and the Terrorism CONPLAN. One of the 
recommendations of the 9/11 commission and mandates included in 
the Homeland Security Act called for a consistent and 
coordinated national plan. Title V of Public Law 107-296 called 
for DHS through the Under Secretary for Emergency Preparedness 
and Response to be responsible for, quote, consolidating 
existing Federal Government emergency response plans into a 
single coordinated National Response Plan. The NRP was not 
perfect but it was necessary. It included the creation of the 
Principal Federal Official, the PFO, which NEMA opposed, and 
the new term, Incident of National Significance. The current 
rewriting effort was given to FEMA in last year's Post-Katrina 
Emergency Management Reform Act.
    FEMA is responsible for administering and ensuring the 
implementation of the National Response Plan, including 
coordinating and ensuring the readiness of each of the 
emergency support functions under the National Response Plan.
    Initially NEMA was heavily consulted and actively engaged. 
NEMA was included on the DHS/FEMA Interagency Steering 
Committee, along with representatives of Federal agencies, a 
representative from the Major City Police Chiefs Association 
and the International Association of Fire Chiefs. In addition 
to the steering committee, NEMA provided over 20 
representatives to various NRP working groups that spent weeks 
and months working as subject matter experts to provide input. 
These highly experienced State emergency management 
professionals participated in lengthy conference calls and flew 
across the country to D.C. Often with very short notice. The 
input provided was based on lessons learned from past disasters 
and a vision for the future.
    Since the informal release of the plan in early August, 
NEMA has identified a number of critical issues that must be 
addressed before it can be recognized and accepted by State 
emergency managers as a viable replacement for the NRP or the 
FRP. We raise these issues as partners to ensure appropriate 
readiness.
    For the purposes of this hearing our comments reflect the 
draft that was obtained in early August. DHS has released a 
final draft for public comment yesterday. In our review it is 
not substantively different than the first draft, although some 
minor improvements have been made. NEMA is concerned that the 
majority of the collaboration, the input provided through the 
interagency steering committee and the writing teams was not 
included in this draft.
    Overall, the most critical issue for NEMA is the current 
framework is not a plan. The document reads more like a primer 
for State and local officials, which is a valuable resource; 
however, it is not the national plan for responding to 
disasters. This can be compared to showing up for a football 
game with an encyclopedia entry on who is involved and how the 
game is played, but without the actual playbook for offense or 
defense.
    Essentially only a small segment of the plan or the 
national team is being considered. The current framework is not 
sufficient for emergency responders and does not replace the 
previous NRP, the FRP. If the framework is intended to serve as 
simply a description of the system of response and an 
introduction to the players involved, an additional document, 
an actual operational plan must be produced as well.
    The current framework has been clearly drafted from a 
Federal perspective and does not appropriately address the 
planning needs of the State and local governments, nor does it 
follow commonly accepted management planning principles, 
specifically unity of command. The current document maintains 
the Principal Federal Official as operational. NEMA supported 
the deletion of this position as duplicative and confusing. If 
it is to persist in doctrine it must be explicitly clarified as 
having no operational role or authority as was stated in the 
Post-Katrina Emergency Management Reform Act.
    Finally, references to mitigation of a document are 
virtually nonexistent and recovery is only sparingly mentioned. 
The current draft does not specifically say what the Federal 
Government brings to the table in a disaster. And the framework 
essentially writes FEMA out of a job by downplaying the role of 
the organization and the National Response Coordination Center 
and the regional response coordination centers. The roles of 
the national operation center, the NOC, and the NRCC should be 
clarified and cemented. Operations and coordination centers 
should serve as the central collection and coordination points. 
A goal should be the reduction in the number of disparate 
operation centers, not the proliferation of them. National 
doctrine for response should eliminate uncertainty. One should 
not be left to wonder whom to call or talk to in a time of 
crisis.
    The current framework references a number of other planning 
guides, hazard specific annexes and other resources that will 
have to be continually developed and adapted to support the 
framework. It has stated that these will be posted to Web sites 
and the emergency response community will be expected to know 
which plan is in play at any given moment. Disaster 
preparedness is about preparing before a disaster occurs and 
not downloading the playbook in the middle of an event. If the 
first time somebody reads a disaster plan is when the event is 
unfolding, they have already lost.
    This concept must be reconsidered, not only to allow 
partner governments to participate in annex development, but to 
allow for the adequate timing to train, practice, refine the 
plans and develop institutional knowledge.
    Finally, the collaborative and cooperative process in 
rewriting this document completely broke down when all of the 
input and advice from partners was put aside for an internal 
DHS rewrite. In April 2007, a month before the deadline, NEMA 
was informed that DHS needed additional time to consider all of 
the input. In the following weeks NEMA learned that DHS was 
undertaking a complete rewrite of the newly completed NRP in a 
closed door process with no stakeholder input, working group 
involvement or visibility by the steering committee. In early 
July NEMA was informed that the nearly complete NRP was in fact 
being completely and substantively rewritten and would be 
renamed the National Response Framework. It would include 
significantly more detail and direction on the responsibilities 
and expectations of State and local governments, but written 
without the collaboration of those State and local government 
representation.
    The interim final draft was released yesterday to a limited 
30-day comment period. Today attempts have been made to open 
communication with DHS on the draft and that process. If the 
collaborative and cooperative process remains strained, we fear 
that the State and local governments and emergency responders 
will be hard-pressed embracing a plan that has not seriously 
taken their input into account.
    Again, NEMA appreciates the opportunity to testify and 
provide Congress with the comments on the National Response 
Framework. We hope that by outlining our current concerns we 
can help DHS make an effort to engage stakeholders to address 
the shortfalls of the current framework and work together to 
strengthen the final product.
    Thank you.
    Ms. Norton. Thank you very much, Mr. Manning.
    Mr. Bohlmann.
    Mr. Bohlmann. Madam Chair, ranking Member, and 
distinguished Members of the Subcommittee, I am Robert C. 
Bohlmann. I am a Certified Emergency Manager and the Emergency 
Manager and Homeland Security Director for York County, Maine. 
I currently serve as a Government Affairs Chair of the 
International Association of Emergency Managers and I am 
providing this testimony on their behalf. Our association 
represents more than 3,800 members, including emergency 
management professionals at all levels of government, tribal 
nations, colleges, universities, private enterprise and the 
nonprofit sector. Most of our members are U.S. city and county 
emergency managers who have the statutory responsibility to 
implement emergency plans in a disaster. We appreciate the 
tireless work of this Subcommittee to strengthen FEMA and your 
continued effort to see that the Post-Katrina Reform Act is 
implemented, and we appreciate the opportunity to provide 
testimony on the process and the substance of the National 
Response Framework. We were extremely gratified to be 
identified as one of the key stakeholders and partners in the 
revision of the National Response Plan.
    Especially in light of our above-mentioned statutory 
responsibilities, we eagerly anticipated participating in a 
collaborative revision process carving out a clear definition 
of the roles and responsibilities of those involved in all 
hazards emergency management at the Federal level. And we look 
forward to a clear and straightforward description of how those 
Federal roles and responsibilities would interrelate with State 
and local emergency management practitioners who have the 
acknowledged lead role in responding to disasters and 
emergencies.
    The process under the direction of FEMA from December 2006 
to March of this year was exemplary. Stakeholders were 
intensively involved in the collaborative group and worked to 
address dozens of different aspects. The NRP revision co chairs 
worked tirelessly to champion a transparent, inclusive process, 
making sure that both stakeholders and key stakeholders were 
represented. That is why I along with other key stakeholders 
and partners were surprised when reviewing an unofficial draft 
document of the National Response Framework dated July 27th, 
which is the one we are commenting on today. The document bore 
little resemblance to what we discussed so extensively from 
March 2006 to the 2007 timeline.
    The last communication we received was on March 13th, that 
the first draft was being delayed. No further stakeholder 
interaction on the revised NRP occurred after that date. IAEM 
believes that this process reversal in conjunction with other 
fundamental misunderstandings of the emergency management 
process by DHS has produced a document with flaws which must be 
corrected for its adoption. IAEM stands ready and willing to 
assist in this process and is hopeful that key stakeholders 
will again be welcomed into the process before the NRF is 
released.
    And we did receive comment this morning from the 
Administrator that that would be happening. A truly effective 
National Response Plan is vitally important and will serve as a 
clear purpose, standing as the overarching planning document 
identifying the role and responsibility of the players and the 
way in which resources are accessed in order to save lives and 
property. It is not rocket science and it does not require 800 
pages.
    The July 27th draft NRF that we have reviewed appears to be 
more like a public relations document rather than response plan 
or framework. IAEM believes one of the fundamental DHS 
misunderstandings is what ``all hazards'' means. It is really 
quite simple. All hazards signifies all hazards resulting in 
any cause, whether natural, manmade, national security or 
homeland security. Therefore, we should identify our disaster 
roles and responsibilities in such a fashion that they relate 
to any disaster. This is commonly referred to as a functional 
all hazards approach to planning.
    We do not agree with DHS's assessment that the audience for 
the draft NRF should be local elected officials. Instead, we 
believe that those charged with the statutory authority to 
implement and coordinate emergency plans at the State, local 
and tribal level of government are the primary audience for 
this document as the subject matter experts.
    The draft NRF seems to undercut reforms of the Post-Katrina 
Reform Act which provides structural realignment and protection 
of FEMA inside the Department of Homeland Security and 
clarifies the role of the Administrator. The act restored the 
national partnering of preparedness, mitigation, response and 
recovery as responsibilities of the reenergized FEMA, yet the 
draft has the responsibilities for the strategic planning 
outside of FEMA.
    The Post-Katrina Reform Act also amended the Homeland 
Security Act of 2002 and clarified the role of the 
Administrator as the principal adviser to the President, the 
Homeland Security Council and the Secretary for all matters 
relating to emergency management in the United States. It 
further stated that in Section 504 the Administrator shall 
provide Federal leadership necessary to prepare for, protect 
against, respond to, recover from or mitigate against natural 
disaster acts of terrorism, other man-made disasters. Yet in 
this draft the role of the Administrator is severely limited 
and frequently ignored. The NRF diminishes the role of the 
Federal Coordinating Officer and gives the Principal Federal 
Official more authority than the Post-Katrina Act allows. The 
continued existence of the Principal Federal Official is 
another way that DHS is increasing our opportunity to fail in a 
disaster response. We strongly urge that the FCO remain the 
single point of contact in the field between the Federal 
Government, State and local governments, and that the FEMA 
Administrator act as the President's direct representative.
    Charles Kmet, the emergency management Administrator for a 
large tribe in Arizona and a member of the FEMA National 
Advisory Council, has asked me to emphasize that the tribes 
continue to see conflicting ways in which they are handled_
sometimes a sovereign nation and other times as local units of 
government_as a major problem not only with the draft NRF, but 
also in many other emergency management and homeland security 
issues. Consequently many tribes are not prepared or equipped 
to the capabiliy level that their local and regional 
counterparts are.
    The principle for emergency management is planning, and 
that is important in the process rather than the particular 
products. General Dwight D. Eisenhower is often paraphrased as 
saying plans are nothing, planning is everything. We are 
greatly encouraged with the collaborative nature that would be 
the beginning of the NRP revision process, and we look forward 
to the ones that were being offered today. We urge FEMA to 
reengage the key stakeholder input and give adequate time to 
correct the flaws of this vitally important plan and encourage 
Congress to insist on the implementation of the Post-Katrina 
Reform Act. The NRF should not be a vehicle for reducing FEMA's 
responsibility and authority.
    Thank you.
    Ms. Norton. Thank you very much, Mr. Bohlmann. We will now 
go to our two additional expert witnesses from outside the 
government; Dr. William Waugh, Professor of Department of 
Public Administration and Urban Studies, Andrew Young School of 
Policy Studies at the Georgia State University, Professor 
Waugh.

 TESTIMONY OF DR. WILLIAM WAUGH, JR., PROFESSOR, DEPARTMENT OF 
     PUBLIC ADMINISTRATION & URBAN STUDIES, GEORGIA STATE 
  UNIVERSITY; AND DR. PAUL STOCKTON, SENIOR RESEARCH SCHOLAR, 
  CENTER FOR INTERNATIONAL SECURITY AND COOPERATION, STANFORD 
                           UNIVERSITY

    Mr. Waugh. Thank you for the opportunity to address the 
Committee, Madam Chair. I am a specialist on local government 
capacity building as well as emergency management, and have 
broader interests. That is, I hope to offer an academic 
perspective but also something of a practitioner perspective. I 
am a current member of the Emergency Management Accreditation 
Program Commission that sets standards for and accredits State 
and local emergency management agencies and a former member of 
the Certified Emergency Manager Commission, which is the top 
national credential for professional emergency managers.
    With the academic hat I look at the NRF draft in terms of a 
variety of things. One is an academic sense of a framework that 
facilitates collaboration and also doesn't interfere with the 
potential for improvisation, particularly on the ground in 
large scale disasters. We do live in a networked world with 
shared authority and dispersed resources, a great deal of 
interdependence, both in terms of intergovernmentally and 
organizationally and individually, and we also live in a world 
where there is considerable stress and conflict between 
emergency managers and Homeland Security officials. So some 
part of the context here is I think in part a reflection of 
that.
    I am also interested in sort of the weaknesses of the NRP 
and how those are addressed; that is, things like excessively 
centralized decision processes that slowed things down, the 
notion of a cavalry approach to disaster management, the 
presumption of a Federal lead, even in relatively small kinds 
of disasters which were sort of an assumption that shows up in 
the other document, a single-minded focus on terrorism, and as 
the Committee has talked about, there are too many people 
without emergency management experience in the structure 
dealing with things.
    I will say that in the field generally there are some very 
positive developments in terms of EMAC, the Emergency 
Management Assistance Compact; that is, letting States share 
resources, statewide mutual assistance, which is facilitating 
intrastate sharing of resources, and now the National Emergency 
Management Network, which is facilitating community resource 
sharing. So there are some very positive things that should 
have some impact on this document.
    The draft has some positive aspects in terms of dropping 
reference to the incident of national significance, the 
emphasis on unified command, although I would caution for 
cultural reasons some people don't understand unified command 
and sharing authority and I would be more than happy to deal 
with that if someone wants to pursue it.
    And the negative aspect is that the NRF is a scenario based 
document that is not all hazards. There are 15 scenarios, 
planning scenarios that are frequently referred to, only three 
of which we might consider natural. There are no large flood 
scenarios, no tornado outbreak scenarios, no tsunami and any 
number of other things that are potentially devastating kinds 
of events.
    There is a lack of attention to connecting response to 
mitigation, response to a variety of other things that is sort 
of necessary to prepare the Nation for dealing with large scale 
events. The obvious things that you have been focusing on have 
been the potential conflict between the principal Federal 
officer and the Federal Coordinating Officer, which I think my 
comments referred to as the 800-pound gorilla in the room if 
you have the representative of the Secretary sort of in the 
chain of command. This also is a question of having more people 
involved in the process who may or may not have any expertise 
with emergency management. And I think the predesignated 
principal Federal officers don't seem to reveal people that 
actually do have that kind of expertise.
    And the lack of direct contact between the FEMA 
Administrator and the President in events that don't involve a 
national disaster, Federal disaster declaration, that it is not 
certain that the President will be receiving advice from 
someone who actually knows anything about emergency management.
    My conclusions are notions that the document actually does 
need to assure that there are experienced emergency managers in 
charge. And I will say that in some of the discussion here that 
frequently people confuse emergency responders and emergency 
managers and they are not the same thing. And developing 
mechanisms that will facilitate collaboration, either 
governmentally, interorganizationally and so on, that while the 
incident command actually drives academics nuts, it is a 
bureaucratic system and we have had 50 years of criticisms of 
that in circumstances that require flexibility and 
improvisation. And the notion of having a document that 
provides at least a general framework but also affords 
opportunity for flexibility when you have to respond to 
changing circumstances.
    And with that I will stop.
    Ms. Norton. Thank you, Dr. Waugh. Now we move to our last 
witness, Dr. Paul Stockton, Senior Research Scholar, Center for 
International Security and Cooperation, Stanford University.
    Mr. Stockton. Thank you, Madam Chair, for the opportunity 
to testify. It is clear that you have read our prepared 
testimony with great care, so I am going to summarize my 
remarks very briefly and maximize the opportunity that you have 
to ask questions. I believe that the draft framework as 
currently written ignores and is likely to subvert the 
important changes that Congress enacted into law in the Post-
Katrina Reform Act. I am going to suggest this morning that 
Congress had compelling reasons to adopt those changes and also 
suggest that departing from the law, departing from the law 
enacted by Congress puts the Nation at risk of some of the same 
systemic failures that hobbled the Federal response to 
Hurricane Katrina.
    I couldn't help but smile, Madam Chair, when you made 
reference earlier to the possibility of doing a side-by-side 
between the law and the draft National Response Framework. 
Because as an old Hill staffer that is exactly what I did when 
I got my hands on a copy of the draft. I lined it up against 
the statutory provisions that you enacted into law, and here is 
what I came up with.
    The act specifies that the FEMA Administrator is, quote, 
the principal adviser to the President for all matters related 
to emergency management in the United States. The act also 
specifies that the Administrator of FEMA shall, and again I 
quote, lead the Nation's efforts to prepare for, protect 
against, respond to, recover from, mitigate against the risks 
of natural disasters, acts of terrorism and other manmade 
disasters. Very clear. And my written testimony provides the 
cites.
    The draft framework ignores these legislative grants of 
authority and assigns them to the Secretary of Homeland 
Security. The framework states that the Secretary, not the FEMA 
Administrator, would be the principal adviser to the President 
for emergency management. The framework also specifies that, 
and here I quote, the Secretary of Homeland Security is the 
principal Federal official for domestic incident management. By 
presidential and statutory authority the Secretary is 
responsible for coordination of Federal resources utilized in 
the prevention of, preparation for, response to or near-term 
recovery from terrorist attacks, major disasters and other 
emergencies.
    Madam Chair, the framework's departure from the division of 
authority that Congress specified in the Post-Katrina Reform 
Act creates a couple of problems. First of all, the framework 
will foster confusion over who is responsible for leading and 
coordinating Federal assistance in a disaster operation. And 
confusion can have deadly consequences.
    Even more important is the second problem. The framework 
takes the emergency management system in the wrong direction 
and ignores lessons learned from Hurricane Katrina. Let me turn 
very briefly to why I believe that is the case.
    Studies of the response to Hurricane Katrina, including the 
House Select Committee's report, A Failure of Initiative, 
identified a number of underlying causes for the failed Federal 
response to Hurricane Katrina. The House report noted that it 
does not appear that the President received adequate advice and 
counsel from a senior disaster professional. And the key reason 
for that, again the report specifies, that under the Homeland 
Security Act of 2002 the Secretary of Homeland Security is the 
Department's top official for emergency management. The report 
noted that emergency management, and I quote, is just one of 
the Secretary's many responsibilities. According to the 
Secretary's testimony before the Select Committee he is not a 
hurricane expert, nor does he have much emergency management 
experience.
    Madam Chair, I believe that it is likely that this 
situation will continue to exist in the future. The Secretary 
is going to be responsible of a vast array of responsibilities, 
including terrorism prevention that extend beyond traditional 
emergency management. The Secretary needs to be good at that. 
Occasionally maybe we will have an emergency manager as a 
Secretary but not always.
    So in response to that thinking, that analysis by Members 
of Congress, the Katrina Reform Act adopted two structural 
changes to strengthen the quality advice to the President. It 
shifted the leadership of emergency management from the 
Secretary to the Administrator of FEMA. And second, as you 
noted earlier, Madam Chair, the act mandates that the FEMA 
Administrator will be an emergency management professional 
with, quote, a demonstrated ability in and knowledge of 
emergency management at Homeland Security.
    Mr. Stockton. I think. Madame Chair, I believe that 
Congress made a sound decision in enacting these changes. The 
Nation needs a professional emergency manager to be in charge 
of the Emergency Management System, and that professional must 
have the authority needed to lead the assistance to States and 
localities when they require it. Any reversion to the previous 
DHS Secretary-led system would be a step backwards and reflect 
an unlearning of the lessons learned at such enormous cost in 
Hurricane Katrina.
    My written testimony provides supporting analysis for the 
arguments I have just presented and highlights additional 
problems with the Framework, particularly in the realm of the 
catastrophic response. I would welcome the opportunity to 
answer questions that you might have and want to thank you 
again for the opportunity to testify.
    Ms. Norton. I want to thank all four of you. I have some 
questions for the four of you. You have been important 
witnesses for us. We obviously have our own expert, but it was 
important for us to hear from the academic community, the 
community that is not involved and doesn't have a dime in this 
dollar, and to hear, of course, from those who we are going to 
look to to get it done.
    And in that regard, Mr. Manning, I just say you got my 
attention because you unearthed a gnawing concern I have had 
ever since looking at this report. And when you said when the--
effectively you said that when the response community feels 
that it has not had sufficient input into a plan, it may not 
embrace that plan. There is a difference between you at a State 
and local level and FEMA, and that is to say that when we write 
a law, we can't compel FEMA to do what we say to do. And we 
intend to do that. But nobody can compel. Nobody up here--that 
is why we have a Federalist system--can compel State and local 
managers to embrace a plan that they think is not sufficiently 
relevant to their own experience. That is a red flag for this 
Subcommittee.
    Now, I want to get to particulars. I am going to ask Mr. 
Manning and Mr. Bohlmann some questions.
    Mr. Manning, first of all, let us establish you are bona 
fide--you are on a steering committee.
    Mr. Manning. Madame Chair, that is correct. I am on the 
steering committee.
    Ms. Norton. Now, I asked the Director about his 
consultation with the steering committee and had to finally 
call him in to dates, the date of March the 5th, because he 
said that there were many back-and-forths after that. So I had 
to say I am talking about the original submission. Now, what 
would have occurred--he also said that State and locals were 
involved, but--that is to say after the initial submission.
    All right. If there was another formal network of State and 
locals--I mean, if they are trying to create a whole network of 
States and locals, perhaps that was the objective. Do you know 
of any State and locals, beside the steering committee where 
there were many State and locals, who were involved or who 
disagree with you? Is there other opinion from the 
organizations that you represent, the National Emergency 
Management Association or, for that matter, the International 
Association of Emergency Managers, at odds? Are you having some 
minority views from those who were consulted even though those 
of you on the steering committee were not consulted after you 
handed in your report?
    Mr. Manning. Madame Chair, I am not aware of any of my 
colleagues that hold a dissenting opinion on our official 
association position, and I am not aware of any local people as 
well.
    Ms. Norton. I wish you would let this Committee know if 
there is a minority view, in your view, that there were State 
and locals who were consulted who had some input into this 
matter. We consulted you because you represent the association 
of all of them, so we thought if they don't tell you, we are 
not sure who they are telling.
    Dr. Waugh, this whole notion of consultation and this whole 
notion of the chain of command--and I want to question all of 
you on this chain of command problem, the Federal officer, the 
principal officer. Dr. Waugh, it is very interesting--you 
said--and I think the metaphor is well taken that--but who is 
the 800-pound gorilla in the room? That was DHS. We were 
literally trying to create an 800-pound gorilla in FEMA because 
it was a baby gorilla. Let us fatten him up, give him some 
muscles, and I will take care of it. And we come back with the 
same puny gorilla that we put in there. He didn't lift his 
weight. Something happened when he was in the room.
    That is what I want to get to, and that is where I would 
most appreciate--because I am now--I am going to hypothesize 
one of the reasons. Notice what we did in the Congress. There 
was disagreement among the Committees. My Committee, Democrat 
and Republican, Full Committee Chairman, the Chairman of the--
the ranking Member, the Chairman of this Committee--I was not 
that Chairman. I was the ranking Member--all believed that 
there was something that didn't need fixing, and we fixed it 
when we took FEMA and put it in the Department of Homeland 
Security. It is an interesting mistake, one that you can 
understand after 9/11. You are trying to consolidate 
everything. So we said--unfix it is what we said, put it back 
to where it was. But by that time, there was a whole 
Committee--and this is part of the Committee on Transportation. 
There was another whole Committee, the Committee on Homeland 
Security.
    I might say as an aside, you can imagine the position this 
puts me in since I'm one of the so-called big four that says 
let us go back to what worked. I am also a Member of the 
Homeland Security Committee. So from the inside of that 
Committee, I saw that Committee claim ownership. What do you 
expect? You give somebody FEMA, and then you want to take it 
away. So Congress, in effect, kind of creates a structural 
problem here. And I am wondering whether or not when this 
document was submitted by Mr. Manning and his colleagues to 
FEMA, whether or not structurally FEMA was put between a rock 
and a hard place, because there is somebody over them that 
Congress has left over them, and they do not report directly to 
the President; or yes, they do, according to the act, except 
they are still in the Department of Homeland Security.
    You know, in our naivete, we thought writing in law that 
they were to report--we thought writing in law that they were 
the principal officer would do it. But I am asking all four of 
you, those of you who have experience from the academic 
community, those of you who understand bureaucracy because you 
have been in State or local government, to say whether or not 
FEMA is put in a position that would make it very difficult to 
do what we have asked them to do because there is somebody that 
looks like he is more powerful, looks like he is in charge of 
them, who can then instruct him with respect to any document he 
turns in what to do. And if so, what do you think we ought to 
do about it, given the fact that we wrote a law that seems to 
us in plain English did say what was to happen and it did not 
happen?
    I am trying to put before you a dilemma so that we don't 
look as if these people just said, ``we don't care what 
Congress said.'' I am trying to look beneath the surface to see 
what was the dynamic that would make anybody in the Federal 
Government ignore so patently what, as Dr. Stockton said, the 
side by side would show you they were mandated to do. Is there 
a structural problem here; and if so, how does FEMA get around 
it and still be a part of the Department of Homeland Security, 
assuming as I do that with all we have on our plate, Congress 
is not going to go through what it would take to snatch FEMA 
out at this point, at least not at the moment? Dr. Stockton, do 
you have a view? Let us start with you.
    Mr. Stockton. Yes, ma'am. I believe that regardless of the 
structural changes that Congress ended up enacting after 
Hurricane Katrina, that continued congressional oversight, 
especially by this Committee, was going to be essential to 
further progress. I note in my written testimony that the Post-
Katrina Act included a very important provision that 
essentially turned FEMA into a fortress within the Department 
of Homeland Security. That was no accident, Madame Chair. That 
came after careful consideration by Members of what had become 
of FEMA within the Department of Homeland Security. In the act 
you specify that the mission and capabilities of FEMA cannot be 
diminished by the Secretary----
    Ms. Norton. Think of it. Think, all four of you, those of 
you in government, do you know of any precedent in the Federal 
sector for that? Hey, you are part of them, he is over you, but 
you really report to the President of the United States?
    Mr. Stockton. My point, Madame Chair, is to make it work, 
sustained, vigorous oversight of the sort you are conducting 
right now is absolutely successful to strengthening the 
Emergency Management System and making this law work as 
intended.
    Ms. Norton. Mr. Bohlman, did you have something you wanted 
to say?
    Mr. Bohlmann. Well, I have seen great changes on FEMA in 
the last year or so and certainly since----
    Ms. Norton. I wish you would detail those. That would be 
important.
    Mr. Bohlmann. Well, we underwent a fairly large disaster in 
the State of Maine this summer, spring and flooding, and the 
response from FEMA was markedly different than it was in May of 
2006. We had the opportunity to do one in 2006 and one in 2007. 
I hope we miss 2008. And it was markedly different. The boots-
on-the-ground response, the capabilities that FEMA brought, the 
openness to work within the community was certainly there. It 
wasn't large enough to have a PFO, so we didn't have to go 
through that, but the Federal Coordinating Officer and the 
regional office and all of the staff that was on the ground, 
there was a marked difference in moving forward.
    Ms. Norton. There was a marked difference in the resources 
they brought, how quick they responded?
    Mr. Bohlmann. How quickly they responded, their willingness 
to be there almost as the rain stopped and start their process, 
their disaster--their initial ground taking the damage 
assessment.
    Ms. Norton. Did you see anything of DHS?
    Mr. Bohlmann. No, no.
    Ms. Norton. Of course, as you said, there----
    Mr. Bohlmann. There was no PFO----
    Ms. Norton. There was no national emergency.
    Mr. Bohlmann. That could be questioned because when you get 
it declared, it is almost--the way it reads now, it could be.
    Ms. Norton. But it wasn't declared----
    Mr. Bohlmann. It wasn't declared national significance, no, 
ma'am. But it was a good response, different, as I say, from 
2006.
    Ms. Norton. Different from 2006 in Maine?
    Mr. Bohlmann. 2006 in Maine, yes, ma'am.
    Ms. Norton. And even though you had not had a Federal--I 
mean, a principal officer, the DHS man, there was a difference 
between the 2006 and the 2007 response and what----
    Mr. Bohlmann. Very definitely, yes.
    Ms. Norton. Just in the quickness of the response?
    Mr. Bohlmann. The rapidness, the willingness to work with 
State and local, the fact that FEMA was on scene and actually, 
during the event, were on conference calls back and forth with 
them. FEMA was much more visible and approachable in 2007 than 
they were the year before.
    Ms. Norton. It looks like they have demonstrated that, left 
to their own devices, they can come in and do the job if they 
don't have somebody who may confuse the people on the ground.
    Mr. Bohlmann. Very well.
    Ms. Norton. Very important to hear that. When we hear about 
this confusion about the plain language--by the way, that 
interests me because if you want to know my real profession, I 
am a professor of law. I taught full time as a tenured 
professor of law at Georgetown University, and I teach one 
course there every year. And it comes out of my experience as a 
Federal official, Chair of the Equal Employment Opportunity 
Commission, and now as a Member of Congress. It is called 
Lawmaking and Statutory Interpretation, and it is all about how 
what we do up here lends itself to confusion and with those 
implementing the law, and that the courts are right when they 
try to discern what in the world we are talking about, shall it 
be the text, shall it be the context, and what we are going to 
do about that. In a world where all of the governments have a 
parliamentary government, you don't have to go to court to find 
out what happens. And so we use all kinds of examples of 
unclear language from the Congress.
    Therefore, you see when I looked at the Post-Katrina Act, I 
looked at it with the other hat I have, which is my 
professorial hat, and I will be darned that I don't think 
anybody would have to sue under this act to find out what we 
meant. Now, when you see how it gets implemented, and indeed 
that in black and white, contrary to what the act says, we have 
this other guy popping up full of muscles, the principal 
officer, you are left to say, well, what more can we say? Dr. 
Stockton, you can depend on us, on oversight. That is why we 
were able--we nailed ourselves as the first of the Committees--
and there are going to be a number of Committees that examine 
this--because we have the primary jurisdiction over FEMA.
    But I am wondering, and I would like to hear from all of 
you who would have an opinion on this, whether in light of this 
confusion--I heard what Mr. Bohlmann said and was impressed 
with it--that you leave these guys to themselves, they heard 
what the Post-Katrina Act said, they were there as rain fell, 
they got it done, it sounds like the old FEMA to me therefore, 
since they had trouble, thereby reducing, frankly, our 
confidence that when they get the comments back, they will 
simply do what we say do as opposed to perhaps what their 
overseers in the Department of Homeland Security say, do you 
believe that the notion that there shall be a single point of 
contact in a national emergency or any other emergency should 
be now further defined in law and written into law? We thought 
we had done it. I am always willing to take responsibility when 
the Congress has been unclear because that is typical of the 
Congress. Do you think that would help in this case?
    Mr. Manning. Madame Chair, I believe that there does need 
to be some direction to clarify that. We cannot go into the--we 
cannot go forward with unclear rules and responsibilities at 
the top of the pyramid as shown on the diagram. The principle 
of unity of command is that every one person works with or 
reports to one other person, and unified command--I have worked 
in a unified command many times in my professional career, and 
it does not mean an abrogation of single point of contact, 
leadership over whoever you are responsible for. It means 
different people of different jurisdictions coming together and 
coming to consensus in the direction of an incident. That is 
very different than having two people with equal and 
conflicting responsibility. As long as that--those roles remain 
in confusion in a National Response Plan, in a Framework, 
whatever the document is called, there will be opportunity for 
failure, and that must be clarified going forward.
    Ms. Norton. We are trying first with the appropriation 
change, which I indicated in my opening remarks. We have asked, 
and the House has already made--defunded this person, at least 
for these purposes. The Department does claim that it needs him 
for other purposes, like foot-and-mouth disease.
    We don't have any problem with the Secretary having an 
advisor. We have problems with countermanding what we said 
about what to do in a Federal emergency management.
    Mr. Manning, you spoke, I think, forebodingly of how this 
was not an operational plan. I wasn't sure how much detail you 
thought needed to be in the plan, whether you were talking 
about amount of detail. When you say it is not an operational 
plan, if that is your criticism, what do you mean by that?
    Mr. Manning. Madame Chair, that really stems from the fact 
that this document does not contain a single frame of reference 
for who is in charge, at what point--at what point does who 
talk to whom. It gives very--it gives many variations on 
different types of emergencies. In some cases it could be this 
person; in some cases it could be these people.
    Ms. Norton. I don't understand that. I thought this was an 
all hazards document; there are different people you report to.
    Mr. Manning. Madame Chair, that is correct, and that is a 
very good point. The Framework reads like an introductory text 
to disaster response with all its many variations, and that is 
useful, as we have stated. This could be a useful document, but 
not in place of an operational plan.
    We need a single document that states that in all cases, 
this is the chain of command, these are the players involved, 
this is the framework under which we will respond. Those 
elements exist in some part in this document. They exist in the 
NIMS document. They exist throughout the ESFs. What is lacking 
now is a single unifying operational plan.
    What is also lacking is a replacement for the old FRP, the 
Federal Response Plan. There is no single one document that 
says how the Federal Government will respond in support of a 
request for assistance from State governments. That is what the 
FRP was. That no longer exists. It is buried within the 
Framework and supporting documents.
    Ms. Norton. If this is not the plan, and this is the 
question that the ranking Member would have wanted to ask--the 
ranking Members had to--one of our Members has died, and he has 
had to go to the funeral, so you will have to excuse him that 
he had to leave to go to a funeral of a Member that is taking 
place in Ohio. Do you believe--if this is not the plan, we are 
trying to find out what is the plan? Does FEMA intend, do you 
think, to replace the National Response Plan with 30 scenario-
based plans? Mr. Manning talked about different plans for--
different strokes, I guess, for different folks. Is that what 
you think they are talking about, Mr. Manning.
    Mr. Manning. Madame Chair, my understanding is in some 
cases that may be correct. It appears in the current draft, the 
public draft that was released yesterday does call for 
playbooks and incident-specific annexes and numerous plans 
based on the 15 scenarios. I can't more vociferously oppose 
that idea. It is one thing and very recommended for an agency 
or a level of government to have an operational hazard-specific 
contingency plan for an area. If you are the government of New 
Orleans, to have a plan for a hurricane coming ashore is a 
great idea. When you scale up to the level we are talking 
about, to have 30 different duplicatives with variation 
operational plans, it is a recipe for disaster. One will be 
left to say, well, is this a flood, or is it a tornado, because 
there was a tornado, or is it a wind event? That cannot be 
allowed to be the environment we operate in, Madame Chair.
    Ms. Norton. Because in a real sense, the preparation is the 
same. For example, in Hurricane Katrina, the big argument among 
the insurance carriers is, you know, we pay for flood, we pay 
for hurricanes; in fact, they were both. When you prepare for--
when you litigate, there is, at the level where we are dealing, 
something everybody should being doing. And then below that are 
things that in your own jurisdiction you know best.
    Dr. Waugh spoke of something that was very disconcerting 
about there being only three natural disaster scenarios in the 
plan, no flood, no tornado. That is the things I most remember 
from this season, by the way. Could this be because the 
Department of Homeland Security thinks, well, we know how to 
handle those things, and what we need the scenarios to be about 
is about terrorism since that is what is new. I am now trying 
to imagine what their response might be for this obvious, 
rather huge discrepancy. Three natural disasters and how many 
terrorist disasters, Dr. Waugh?
    Mr. Waugh. The remaining 12 would be terrorism.
    Ms. Norton. How do you account for that? How do you think 
they would account for that, and what is the danger.
    Mr. Waugh. The essential focus was on terrorism. It would 
be, frankly, fairly easy to develop scenarios that are not 
terrorist-related that would actually have applicability for a 
chemical attack or a variety of other things. But part of the 
problem--if you are focusing on that as sort of the planning 
scenarios in all of those cases--if it is a terrorist event, 
the Federal Government is the lead, and it really defines the 
structure that----
    Ms. Norton. The Federal Government. Does that mean FEMA, or 
who does that mean?
    Mr. Waugh. It means DHS. It doesn't necessarily mean FEMA.
    Ms. Norton. In fact, that is, of course, if there was to be 
a fatal flaw in the document, it is not having the same answer 
from them as from you. That is where the original sin, it seems 
to me, would lie, and then you go forward from there to the 
bureaucracy and the rest of it.
    Mr. Bohlman, and Mr. Manning for that matter, because Mr. 
Manning was on the Committee, why do you believe that the 
steering committee and other responders were shut out after 
this first document was submitted? And why does it bear so 
little resemblance to what you submitted? Why would such 
changes be made, and what--how would you characterize the major 
differences between what was submitted by the steering 
committee on the ground and what has come up in this final 
response Framework?
    Mr. Manning. Madame Chair, I have no knowledge of why the 
draft that was done in consensus between the working groups, 
the writing teams, the steering committee and all of the 
stakeholder input, the 700 plus people that----
    Ms. Norton. What were the major changes?
    Mr. Manning. The NRP, the National Response Plan revision 
that was completed sometime in the spring of 2007 was an 
operational plan. It was a revision to the National Response 
Plan. It included checklists and oversight and overview 
documents for elected officials, as was mentioned, that is now 
the core of the new document, plus a new doctrine. The National 
Response Plan revision that was the product of 6 or 8 months of 
work was an operational plan. I don't know why. All I know----
    Ms. Norton. It is basically--the operational nature of it 
is not so much the content of the plan?
    Mr. Manning. That is correct, Madame Chair. The draft that 
went away in the spring was an operational plan. It contained 
consensus. An example is the PFO, the principal Federal 
official. The writing team that was--the working group that was 
trying to define the roles and responsibilities of all of the 
officials worked on that particular position and how it would 
be defined in the NRP, the new NRP. It was explained and made 
very clear there was no negotiation, that position would not go 
away. It was not up for discussion. That would remain in the 
plan.
    So they worked very diligently to come up with an 
explanation, a definition, a description of the role and 
responsibility of that position, And what they came up with, 
what was in the draft that was completed in the spring, was 
that position was for informational purposes only for the 
Secretary. It was a representative of the Secretary on the 
ground for visibility--for the Secretary's visibility into a 
disaster operation in an affected State; had no line or 
operational or any authority whatsoever on the ground, simply a 
representative of the Secretary, like him coming to visit.
    What came out in the plan--in the Framework is a very 
decidedly operational position that, depending on the 
situation, may have authority; while not having a line 
authority over the FCO, certainly has the inherent authority 
over the FCO, and certainly looks so on the ORG chart.
    Ms. Norton. The point you make is just a very important one 
in understanding what to do.
    Finally, let me say, one last question, because we are 
honored to have the Chairman of the Full Committee here who is 
an expert, the ultraexpert on all of these issues, and I would 
like to ask him to say a few words, perhaps have some 
questions. But I do want to make sure I know how to proceed 
from here.
    We are going to get questions and answers. You heard me ask 
FEMA if they need more time to respond. We are going to give it 
to them. They said yes. I am not trying to make work for 
anybody, but it occurred to me that they didn't say anything 
about going back to the steering committee to assure them that 
they had taken into account or to hear further from them.
    Do you think in addition to the 30-day or more response 
period that the steering committee should be reconvened, the 
steering committee consisting of any State and local officials, 
so that they can, in fact, have some concerted input into the 
final document?
    Mr. Manning. Madame Chair, the steering committee is still 
in effect as far as I am aware. We do have weekly conference 
calls. There was one this morning while this hearing was being 
conducted. The steering committee is primarily the Federal 
interagency. There are only three State and local government 
representatives out of the membership, And my understanding is 
that through this last 30 to almost 60 days, the draft that 
went out on the street was being circulated through the Federal 
interagency, through the Federal members of the steering 
committee.
    Ms. Norton. Wait a minute. Let me understand this. How many 
members were on the steering committee?
    Mr. Manning. Madame Chair, I actually do not know the total 
membership of the steering committee. It is primarily the 
Federal interagency.
    Ms. Norton. It is primarily Federal officials. 
Approximately how many?
    Mr. Manning. I would say approximately 15 to 20.
    Ms. Norton. Approximately 15, about three State and local 
officials, and you are saying that the Federal members of the 
steering committee continue to be involved, but not the State 
and local members of the steering committee?
    Mr. Manning. Madame Chair, I am sorry, let me give a little 
more explanation on that. The members of the steering committee 
were not involved in the period between the end of May and July 
when the new draft came out on the streets. The Federal----
    Ms. Norton. Federal and local members?
    Mr. Manning. That is correct, Madame Chair.
    For the last 30 days, since it was released in July through 
the month of August, it was undergoing--the Framework draft was 
undergoing a review-and-comment period through the Federal 
interagency, the agencies being led by their member 
representatives to the steering committee. It was not provided 
to State and local governments on the steering committee--well, 
it was provided to the--I received a copy in July, Madame 
Chair, but not for dissemination to the membership of the 
National Emergency Management Association or to the Governors 
or to anybody else. It was simply for my personal review.
    Ms. Norton. And not also as a member of the steering 
committee, for the steering committee to collectively look at 
this document you then received?
    Mr. Manning. Madame Chair, I personally was given a copy 
and asked for my personal comments inside of that period. The 
Federal agencies were given agency copies, for the agencies to 
give formal comment, I believe, a large number of those 
comments. It was not provided to the International Association 
of Emergency Managers, to the National Emergency Management 
Association for all of the members and mayors and 
representatives to comment inside that period.
    Ms. Norton. They would say that is for the comment period.
    The reason I ask about the steering committee is because 
these were the original drafters of the plan, and so if you are 
going to go back to anybody, it does seem to me that you--it 
might be appropriate to go back to the steering committee--
after all, they gave you something--if only as a matter of 
respect, to say, We are giving you back something different, 
and maybe you want to have something to say about it.
    Mr. Manning. Madame Chair, at this point it appears those 
decisions are made internally at DHS headquarters, and the 
steering committee is on occasion being briefed.
    Ms. Norton. Mr. Chairman, this has been really very 
forthright and important testimony. We heard first from the 
Department, and we made every attempt to be fair to the 
Department by letting the Department know in advance. The crux 
of the comments that were submitted by these witnesses, they 
were very seriously at odds with the Framework, and we now 
heard from the members, the experts, too, from State government 
who represent those from State and local government, and two 
outside experts. You, Mr. Chairman, are the ultimate inside 
expert, and I would like to ask you to make such comments that 
you have or ask such questions as you may bring.
    Mr. Oberstar. Thank you, Madame Chair, for those 
compliments. But you have been conducting a rigorous and 
thorough hearing and inquiry into the development of the 
National Response Framework Plan, and I followed a good bit of 
it upstairs when I was in my office with one after another 
group of constituents and other--including a visiting 
delegation from France, a mayor--two mayors of French cities 
who are here to understand how our system of government works 
compared to the parliamentary system of government. And I 
turned on the television to say, Here is how our system of 
government works. We have a well-informed Committee, 
Subcommittee Chair who knows the subject matter and is 
proceeding like an inquest, cross examination that has been 
withering, and they listened, and I translated with some great 
interest on their part.
    But what you have been pursuing here is the origin, 
evolution, development of this National Response Plan, and what 
appears to me is that there is a plan developed by the group, 
the Commission, that then was commandeered by Homeland Security 
and fashioned into a response Framework draft that apparently 
you did not see after it left your hands; is that correct? Or 
had little input once it left----
    Mr. Manning. Mr. Chairman, that is essentially correct. The 
working groups, the writing teams and the steering committee 
came to a consensus document that went through public comment 
within the community, and that document then was reframed, 
redrafted by the Department of Homeland Security in a separate 
process without the visibility of any of those stakeholders 
into this new document.
    Mr. Oberstar. It doesn't appear to have the structure of a 
plan, laying out very--in very specific ways how response to 
disasters will occur. And one thing that caught my eye as I 
read through this previously was that these gratuitous 
commentaries, resilient communities begin with prepared 
individuals and families, that could have been written in the 
sixth grade. I just don't understand where this sort of thing 
comes from.
    In the collapse of the I-35W bridge in Minneapolis, simply 
because that is the most recent event, the response was very 
well structured because the mayor took advantage 4 years ago of 
the Advance Preparation for Disaster Initiative that James Lee 
Witt had established while he was at FEMA. The community 
engaged in planning exercises and then in a mock disaster 
response, bringing together not only the first responders of 
Minneapolis, but those of St. Paul and the surrounding local 
jurisdictions, mobilizing so that each one knew what its role 
was to be. And then they did a warm-up a year ago just to 
revisit the response plan. They were prepared. They were ready 
to move because they had--they had engaged in this exercise.
    How many communities under this plan are going to be 
counseled, advised and supported in undertaking this kind of 
response? Is there a structure within this Framework to do 
that?
    Mr. Bohlmann. I would like to try to comment on that. I 
believe from what I have seen in the basic draft document that 
we saw on July 27th, and even the one that came out yesterday, 
which I quickly looked at last evening, that does not have that 
in it. But the playbooks and the reference materials on the 
other Web site that they talk about may provide more of that.
    However, that type of response and planning at the local 
level is what the local emergency managers do on a daily basis, 
and we would use this Federal plan as the overarching, guiding 
plan to do that local planning and exercising and training that 
you refer to which is so critical. And the response you saw in 
the Minneapolis area is the response that we all work daily to 
encourage in our local communities and is so critical to do 
that.
    This is a document that we need to look at for the larger 
picture and currently, what we saw on the 27th of July, does 
not provide that. And I cannot really go into great detail on 
the playbooks and other that are going to be on the Web site. 
Maybe my counterpart Mr. Manning would care to comment more.
    Mr. Oberstar. Other Members wish to comment.
    That is very disturbing. The success of any response 
mechanism begins at the community level and should. And the 
experience of Katrina and of other incidents and on this 
particular day, recalling September 11, there were so many 
lessons that we were to have learned and to have applied, and 
this document just does not seem to apply those lessons 
learned, and that to me is troubling.
    Mr. Bohlmann. Well, I would like to add there are other 
avenues that FEMA does provide, and they are excellent avenues, 
and one of the key ones is the Emergency Management Institute 
in Emmitsburg where that high level of training is provided by 
FEMA on a regular basis, and another is from universities such 
as Dr. Waugh, Dr. Stockton here today that are offering courses 
at all levels today to get professional emergency managers and 
public officials trained. But, again, I will go back to we 
still need that overarching document to bring that all 
together.
    Mr. Oberstar. It appears to me also there is a very heavy 
reliance in this document on response to what we might call in 
other terms a terrorist attack. I have said that--and former 
Chairman Don Young and I, when we were laboring over the 
proposal to create a Department of Homeland Security, would 
remove FEMA from its position, the Coast Guard, throw these and 
many others into this new amalgam-- that our terrorism in the 
heartland is fire, flood and blizzards, whiteouts. On the 
northern border, the prospect of Canadians trying to sling 
their way across the border is remote. It is Americans who are 
invading Canada for their healthcare system.
    What we need is a plan that really prepares local 
governments to cope with an event that is beyond their local 
capacity to manage. And I just have a feeling that this 
national response architecture is a subtitle, a response to 
terrorism, and not in preparation for and response to those 
tragedies that strike us day to day and which will occur with 
greater frequency in this year of global climate change.
    You are all nodding yes.
    Mr. Manning. Mr. Chairman, I think you bring up a very 
important point in that in the past, when FEMA was independent, 
but that notwithstanding, we had disparate plans for disparate 
events. We had the Federal Response Plan for general, large 
emergencies. There was the CONPLAN that dealt with how the 
agencies would come together if it was terrorism to do the 
investigatory piece. The directive that the Department of 
Homeland Security combine these plans into a National Response 
Plan was really one to--a directive to unify--to take to the 
final step the all-hazard planning concepts; that it doesn't 
really matter what caused it, the response is going to be the 
same. There may be investigatory pieces, there may be 
mitigation pieces later, there may be other aspects to it, but 
the response will be primarily the same.
    What we have seen out of the NRP, the first version, the 
second version that was in effect during Katrina, and then the 
third draft even, and certainly in the Framework, is that that 
differentiation has not been eliminated; it has almost been 
cemented, it has almost been institutionalized to say that the 
idea, for example, that you need a PFO and an FCO because 
sometimes there won't a Stafford Act declaration, so you won't 
need an FCO, so we are always going to have a PFO. I think what 
is an important tenet that needs to be taken into account when 
we are drafting our national response plans is that we need to 
find a way to do it and do it that way and not--without regard 
for the cause, or the effect, or any of the other pieces.
    Mr. Oberstar. Thank you. I think that is exactly what I 
hear from local fire chiefs, from volunteer fire departments, 
from local police, sheriffs' departments. They are looking for, 
as you described it, a cohesive, coordinated response and for 
support, volunteer fire departments, for example. We had a 
tragedy, and I had this discussion with Mr. Paulson shortly 
afterward, in April of this year. Campers in the wilderness 
area, the Bounty Waters Canoe Area, the wilderness, had a 
campfire going, and they were burning trash, which they 
shouldn't have been doing, and it was in a time of year where 
fires were discouraged by the Forest Service, very dry. They 
left the campsite and the campfire burning. Wind came up, blew 
it into the nearby brush and then the woods, and a fire was 
underway, a huge forest fire.
    So the volunteer fire department arrived with their pumper 
truck, and it didn't work. They had applied to FEMA 2 years 
consecutively for a grant to buy a new pumper truck. It could 
have snuffed that fire right out at the start. They were turned 
down because they didn't show a connection between their pumper 
truck request and Homeland Security.
    That is an outrage, and that is where a document like this 
falls apart. If it doesn't recognize that these day-to-day 
occurrences--and that fire eventually swept 75,000 acres--then 
it is not doing its job, and it is going to be our 
responsibility to make sure that we turn this document around.
    Thank you very much for your contributions. It has been--
your insights have been very beneficial.
    And thank you, Madame Chair, for your grinding inquisition 
here.
    Ms. Norton. Well, thank you, Mr. Chairman. We did believe 
that we had to be very clear to FEMA and to the Department of 
Homeland Security that this was an oversight hearing in the 
nature of a critique, and that is why we had expert witnesses 
in the first place. The whole purpose of a critique is to get 
improvement, and that is what, given what is at stake, we are 
going to demand--we are going to demand with more hearings.
    I appreciate, Mr. Chairman, your remarks focusing on the 
cohesive nature of the response. The Framework must contemplate 
cohesive nature to all hazards, as the witnesses have also 
reinforced, and that FEMA is who Congress said and who the 
public believes has that responsibility, and if it doesn't, 
then everybody is in confusion.
    And Dr. Waugh, Mr. Chairman, made a point that we did not 
in this hearing have need to question about, but it is very 
important in light of the all-hazards response. He talked about 
allowing for innovations and flexibility at the local levels. 
That is what they are there for, to see whether or not to apply 
all hazards to a hurricane, to a tornado. There is a general 
notion of what everybody should be able to do. Beyond that, the 
Federal Government wouldn't dare to tell you what to do, 
because only you know what to do on the ground. You have done 
it in Maine on the ground for generations. But we are here to 
provide guidance in case it is a flood or in case it is a 
terrorist attack. These are the fundamentals. These are the 
operational fundamentals as Mr. Manning would have it.
    So, Mr. Chairman, the heart of what we have heard today is 
that there are still two people on the ground, and that those 
two people continue to render confusion in the field. That is 
all we needed to hear. None of us has--none of the witnesses 
has said that the Secretary should not have his own man; 
however, the statute made clear who our man is, Mr. Chairman, 
when it comes to a Federal emergency, and that was supposed to 
be FEMA, and we have heard no testimony that documented the 
notion that FEMA is the primary person.
    In fact, what we are left with are three flaws, all of 
which individually and together, it seems to me, could be 
called fatal. One is the redundancy of these officers, the 
Secretary's man, our man--each of those may be women at any 
point in time--and who is in charge on the ground; secondly, 
the bureaucracy that breeds--and FEMA--and DHS's reach-down 
continually into FEMA's expertise, although DHS has no specific 
Federal management expertise. It has across-the-board 
oversight, none of the specific management expertise that is 
very hard to come by--I asked Mr. Bohlmann who is a certified 
Federal management officer.
    And the third was--and this, of course, is ominous to 
hear--the cutoff to quick advice to the President of the United 
States because of the waving line--we are not sure where it 
goes between FEMA and the President--indicated whether this 
was--asked whether this was structural; given what we have done 
leaving FEMA in there, what we thought we should do about it, 
whether to strengthen the legislation; whether to do what we 
have done with the Federal officer and the principal officer 
and the appropriation.
    But I tell you one thing, gentlemen, we are not going to 
sit here and do nothing. That is why we had this hearing on 
September the 11th. That is why we asked you for your candid 
critique. That is why, on the basis of your critique, I have 
announced today that we will be asking the GAO for its critique 
of this report and of what you have had to say about this 
report.
    The Subcommittee cannot thank you enough for the time, the 
effort, the great thought on this you put into your own 
critique of this extraordinarily important document to the 
security of the United States of America. Thank you, and this 
hearing is adjourned.
    [Whereupon, at 1:00 p.m., the Subcommittee was adjourned.]

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
</pre></body></html>
